Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 NEW JERSEY DID NOT COMPLY
    WITH RECOVERY ACT
     REQUIREMENTS FOR
RECEIVING INCREASED FEDERAL
    MEDICAID ASSISTANCE


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       July 2014
                                                     A-02-11-01039
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY


 To comply with the political subdivision requirement in the Recovery Act, New Jersey
 should redistribute approximately $45.2 million in increased Federal Medicaid assistance to
 its counties and local school districts.


WHY WE DID THIS REVIEW

This audit is part of a series of reviews of States’ compliance with the requirements to receive
temporary increases in their Federal medical assistance percentage (FMAP) under the American
Recovery and Reinvestment Act of 2009 (Recovery Act). We reviewed States’ compliance with
Recovery Act requirements because of the significant increases in States’ Federal Medicaid
assistance.

The objective of this review was to determine whether the New Jersey Department of Human
Services (State agency) complied with the political subdivision requirement for receiving the
temporary increase in FMAP under the Recovery Act.

BACKGROUND

The Recovery Act provided fiscal relief to States to protect and maintain State Medicaid
programs during a period of economic downturn. For the period October 1, 2008, through
December 31, 2010 (recession-adjustment period), the Recovery Act provided approximately
$87 billion in additional Medicaid funding on the basis of temporary increases in States’ FMAPs.
The recession-adjustment period was extended through June 30, 2011, but we did not review the
State agency’s compliance with Federal requirements for this 6-month extension period.

States were eligible for the temporary increase in FMAP only if they did not require political
subdivisions (e.g., counties and local school districts) to pay a greater percentage of the
non-Federal share of Medicaid expenditures during the recession-adjustment period than the
percentage required under the State Medicaid plan during the 12-month period ended September
30, 2008 (base period). For the purposes of this review, we refer to this as the political
subdivision requirement.

For the recession-adjustment period, the State agency received an estimated $2.1 billion in
additional Medicaid funding on the basis of increases in New Jersey’s FMAP.

HOW WE CONDUCTED THIS REVIEW

We reviewed aggregate contributions from New Jersey’s political subdivisions to the
non-Federal share of New Jersey’s total Medicaid expenditures reported on the State agency’s
Forms CMS-64, Quarterly Medicaid Statement of Expenditures, for the base and recession-
adjustment periods.



New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                         i
WHAT WE FOUND

New Jersey did not comply with the political subdivision requirement for receiving the increased
FMAP under the Recovery Act. In the aggregate, New Jersey’s political subdivisions
contributed 4.84 percent of the non-Federal share of Medicaid expenditures during the base
period and 6.35 percent of the same share during the recession-adjustment period—a difference
of 1.51 percent. We calculated that New Jersey could demonstrate compliance with the political
subdivision requirement if it redistributed approximately $45.2 million to its political
subdivisions.

New Jersey’s political subdivisions contributed a greater percentage of the non-Federal share of
Medicaid expenditures during the recession-adjustment period than during the base period
because the State agency did not adjust its requirements for these contributions to ensure
compliance with the political subdivision requirement before the State agency accessed increased
FMAP funds.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   redistribute approximately $45.2 million in increased FMAP funding to its political
        subdivisions to comply with the political subdivision requirement and

    •   work with the Centers for Medicare & Medicaid Services to ensure that, for the 6-month
        Recovery Act extension period ended June 30, 2011, political subdivisions did not
        contribute a greater percentage of the non-Federal share of Medicaid expenditures than
        the percentage required under the State Medicaid plan on September 30, 2008.

                    STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially agreed with our first
recommendation (redistribution of funds) and described actions that it plans to take to address
our second recommendation. Specifically, the State agency agreed that it was not in compliance
with the political subdivision requirement for receiving increased FMAP under the Recovery
Act. However, it disagreed with the amount it must redistribute to New Jersey’s political
subdivisions for it to comply with the requirement.

According to the State agency, it does not rely on the aggregate methodology—one of two CMS-
approved methods—for measuring its compliance and would need to distribute no more than
$17,061,780 to local jurisdictions to be in compliance under the CMS-approved payment-
specific method. The State agency also took issue with how we calculated the amount that it
would need to distribute to county nursing facilities during the recession adjustment period. The
State agency also argued that it uses certified public expenditures (CPEs) to fund county-
operated nursing and psychiatric facilities and that under such a funding mechanism, there is no
county share. The State agency forwarded correspondence between State agency and CMS
officials in which CMS confirmed that on the basis of the State agency’s description of its


New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                       ii
funding mechanism, the State agency complied with the political subdivision requirement.
Finally, the State agency also indicated that it plans to review data for the 6-month Recovery Act
extension period ended June 30, 2011, and take appropriate action, depending on how issues in
this report are resolved.

After reviewing the State agency’s comments, we revised our finding and recommendation
related to county nursing facility expenditures. We did not accept the State agency’s argument
concerning its use of a CPE funding mechanism because the State agency did not completely and
accurately describe its funding mechanism to CMS in its correspondence related to county
nursing and psychiatric facility expenditures.

Regardless of whether the State agency relies on either the aggregate or payment-specific
method, New Jersey is subject to losing all of its increased FMAP funding for the recession-
adjustment period if it does not demonstrate compliance with the political subdivision
requirement. However, New Jersey could retain the increased FMAP if it properly adjusts its
political subdivisions’ contributions during the recession-adjustment period. We calculated that
the State agency should redistribute approximately $45.2 million to the political subdivisions for
it to comply with the political subdivision requirement and, therefore, retain the increased FMAP
funding.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                      iii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 The Medicaid Program ............................................................................................1
                 The Recovery Act: Political Subdivision Requirement ...........................................1
                 Demonstrating Compliance With the Political Subdivision Requirement ..............2
                 New Jersey’s Requirements for Contributions by its Political Subdivisions
                   to the Non-Federal Share of Medicaid Expenditures ............................................2

           How We Conducted This Review........................................................................................3

FINDINGS ......................................................................................................................................4

           Services in County Nursing Facilities..................................................................................4

           Services to Uninsured Patients in State Agency- and County-Operated
            Psychiatric Facilities .........................................................................................................5

           Medicaid-Eligible School-Based Services ...........................................................................6

CONCLUSION ................................................................................................................................6

RECOMMENDATIONS .................................................................................................................7

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE ......7

           Payment-Specific Method....................................................................................................8
                 Use of Certified Public Expenditures ......................................................................8
                 Services in County Nursing Facilities......................................................................9
                 Services in State Agency- and County-Operated Psychiatric Facilities ................10
                 Medicaid-Eligible School-Based Services .............................................................11

           Aggregate Method .............................................................................................................12
                 State Agency Comments ........................................................................................12
                 Office of Inspector General Response ...................................................................12

           Conclusion .........................................................................................................................12
                 State Agency Comments ........................................................................................12
                 Office of Inspector General Response ...................................................................12



New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                                                       iv
APPENDIXES

        A: Related Office of Inspector General Reports ...............................................................14

        B: Federal Eligibility Requirements for the Increased Federal Medical Assistance
             Percentage Under the Recovery Act .........................................................................15

        C: New Jersey Requirements for Contributions by Political Subdivisions
            to the Non-Federal Share of Certain Medicaid Expenditures ...................................17

        D: Audit Scope and Methodology ....................................................................................19

        E: Aggregate Method Calculation ....................................................................................21

        F: Political Subdivisions’ Contributions to the Non-Federal Share
             of New Jersey’s Medicaid Expenditures...................................................................22

        G: Amounts To Be Redistributed to Political Subdivisions for New Jersey
            To Comply With Recovery Act Requirements .........................................................23

        H: State Agency Comments Dated February 21, 2014 .....................................................31

        I: State Agency Comments Dated March 31, 2014 ..........................................................44




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                                  v
                                            INTRODUCTION

WHY WE DID THIS REVIEW

This audit is part of a series of reviews of States’ compliance with the requirements to receive
temporary increases in their Federal medical assistance percentage (FMAP) under the American
Recovery and Reinvestment Act of 2009 (Recovery Act). We reviewed States’ compliance with
Recovery Act requirements because of the significant increases in States’ Federal Medicaid
assistance. For a list of related Office of Inspector General reports, see Appendix A.

OBJECTIVE

Our objective was to determine whether the New Jersey Department of Human Services (State
agency) complied with the political subdivision requirement for receiving the temporary increase
in FMAP under the Recovery Act.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The Recovery Act: Political Subdivision Requirement

The Recovery Act provided fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the period October 1, 2008, through
December 31, 2010 (recession-adjustment period), the Recovery Act provided approximately
$87 billion in additional Medicaid funding on the basis of temporary increases in States’
FMAPs. 1

States were eligible for the temporary increase in FMAP only if they did not require political
subdivisions (e.g., counties and local school districts) to pay a greater percentage of the
non-Federal share of Medicaid expenditures during the recession-adjustment period than the
percentage required under the State Medicaid plan during the 12-month period ended




1
  Section 201 of the Education, Jobs, and Medicaid Assistance Act (P.L. No. 111-226) extended the recession-
adjustment period through June 30, 2011, by amending section 5001(g)(2) of the Recovery Act. We did not review
the State agency’s compliance with Federal requirements for this 6-month extension period.


New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                       1
September 30, 2008 (base period) (Recovery Act, § 5001(g)(2)). 2 For the purposes of this
review, we refer to this subsection as the political subdivision requirement.

Demonstrating Compliance With the Political Subdivision Requirement

In a letter to State Medicaid directors, CMS provided guidance on the political subdivision
requirement. 3 In the letter, CMS stated that States attest to their compliance with the political
subdivision requirement when they access increased FMAP funds. States could demonstrate
compliance with the political subdivision requirement using one of two methods: the payment-
specific method 4 (which compares the percentage of the non-Federal share contributed by each
political subdivision for each type of expenditure) or the aggregate method 5 (which compares the
percentage contributed by all political subdivisions for the total annual program costs).

CMS recommended that States use the payment-specific method to demonstrate compliance with
the political subdivision requirement when political subdivisions are required to contribute to the
non-Federal share for particular Medicaid expenditures.

CMS further indicated that failure to comply with Recovery Act requirements would make States
subject to losing all of their increased FMAP. However, the increased FMAP would be restored
if States corrected any issues by adjusting the funding of the non-Federal share by their political
subdivisions to reflect the correct percentages as of September 30, 2008.

For details on the Federal requirements and CMS’s guidance on the increased FMAP under the
political subdivision requirement, see Appendix B.

New Jersey’s Requirements for Contributions by Its Political Subdivisions to the
Non-Federal Share of Medicaid Expenditures

In New Jersey, the State agency administers the Medicaid program. The State agency submits
the Form CMS-64, Quarterly Medicaid Statement of Expenditures (Form CMS-64), to report

2
 State Medicaid Director Letter (SMDL) #10-010 defined the base period to be the 12-month period ended
September 30, 2008 (CMS, SMDL #10-010, issued June 21, 2010).
3
    CMS, SMDL #10-010, issued June 21, 2010.
4
  Under the payment-specific method, States compared the percentage of the non-Federal share of Medicaid
expenditures funded by political subdivisions for each type of expenditure (for which States required the political
subdivisions to share the funding of the non-Federal share) in the base period with the funding obligation for the
same types of expenditure during the recession-adjustment period. States demonstrated compliance if there were no
increases in political subdivision funding obligations for any type of expenditure.
5
 The aggregate method included an analysis of total annual program costs (medical and administrative) for the
Medicaid program as it existed under States’ Medicaid State plans on September 30, 2008. For the base period,
States determined the percentage of aggregate funding of the non-Federal share that was required to be furnished by
political subdivisions. To determine compliance with the Recovery Act, States compared the percentages of
aggregate funding of the non-Federal share required of political subdivisions during the base and recession-
adjustment periods. States demonstrated compliance if the percentage during the recession-adjustment period was
no greater than the percentage during the base period.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                        2
total computable expenditures to CMS and claim the FMAP of reported expenditures for
Medicaid reimbursement. The State agency attested to New Jersey’s compliance with the
political subdivision requirement of the Recovery Act when it accessed increased FMAP funds.

New Jersey is composed of 21 counties. Seventeen of these counties operated 19 nursing
facilities, and 6 counties operated psychiatric facilities during our audit period. There are also
more than 600 school districts in New Jersey, some of which operate on a countywide level
while others serve single municipalities (e.g., townships). These counties and the school districts
are political subdivisions.

New Jersey does not require its political subdivisions to contribute to the non-Federal share of all
Medicaid expenditures. Rather, it requires its political subdivisions to contribute to the non-
Federal share of four categories of Medicaid expenditures: (1) services provided in county
nursing facilities, (2) services to uninsured patients in State agency- and county-operated
psychiatric facilities, (3) Medicaid-eligible services administered by local school districts, and
(4) certain administrative costs incurred by counties. The non-Federal share is derived by
subtracting the applicable Federal share from the total computable expenditures for each
category as reported on the State agency’s Form CMS-64. For details on New Jersey’s
requirements related to political subdivisions’ participation for each of the four expenditure
categories, see Appendix C.

For the recession-adjustment period, the State agency received an estimated $2.1 billion in
additional Medicaid funding on the basis of increases in the State’s FMAP. 6 Although New
Jersey requires political subdivisions to contribute to the non-Federal share for only four
categories of Medicaid expenditures, the State agency elected to use the aggregate method (as
described in footnote 5) to demonstrate New Jersey’s compliance with the political subdivision
requirement of the Recovery Act. 7

HOW WE CONDUCTED THIS REVIEW

We compared New Jersey’s political subdivisions’ aggregate contributions to the non-Federal
share of total Medicaid expenditures reported on the State agency’s Forms CMS-64 for the base
and recession-adjustment periods.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

6
  The FMAP for New Jersey was 50 percent during the base period. The FMAP was increased to 58.78 percent for
the period October 1, 2008, through March 31, 2009, and to 61.59 percent for the period April 1, 2009, through
December 31, 2010 (recession-adjustment period).
7
  Before our fieldwork, the State agency indicated in a detailed position paper to CMS that it could demonstrate
compliance under the aggregate method. Subsequent to the issuance of our draft report, the State agency indicated
that it did not rely on this method. The State agency’s subsequent indication did not impact our findings and
recommendations.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                          3
Appendix D contains the details of our audit scope and methodology.

                                                   FINDINGS

New Jersey did not comply with the political subdivision requirement for receiving the increased
FMAP under the Recovery Act. In the aggregate, New Jersey’s political subdivisions
contributed 4.84 percent of the non-Federal share of Medicaid expenditures during the base
period and 6.35 percent of the same share during the recession-adjustment period—a difference
of 1.51 percent. We calculated that New Jersey could demonstrate compliance with the political
subdivision requirement if it redistributed approximately $45.2 million to its political
subdivisions. 8 Although the difference (1.51 percent) is approximately $145.2 million, this
amount differs from what we are recommending New Jersey redistribute because of the way in
which States were to calculate their political subdivisions’ contributions using the aggregate
method and the nature of New Jersey’s policies for reimbursing political subdivisions’ Medicaid
expenditures.

Appendix E contains our calculation of political subdivisions’ percentage contribution of the
non-Federal share using the aggregate method. Appendix F shows the components of our
calculation (i.e., political subdivisions’ Medicaid expenditures).

New Jersey’s political subdivisions contributed a greater percentage of the non-Federal share of
Medicaid expenditures during the recession-adjustment period than during the base period
because the State agency did not adjust its requirements for these contributions to ensure
compliance with the political subdivision requirement before the State agency accessed increased
FMAP funds.

SERVICES IN COUNTY NURSING FACILITIES

New Jersey claims Medicaid reimbursement for county nursing facilities on the basis of actual
allowable Medicaid costs incurred by the provider. 9 Funding for such county-administered
nursing facilities is composed of a Federal share and the non-Federal share. The non-Federal
share is composed of the (1) State (New Jersey) share and (2) contributions from each county
(which is the difference between the total non-Federal share and the State share).

New Jersey reimburses counties for services in nursing facilities using a blended rate composed
of Federal and New Jersey shares. Contributions made by the counties cover the remainder of
their facilities’ actual expenditures.

8
  The political subdivisions’ contributions to the non-Federal share of expenditures during the recession-adjustment
period totaled $611,175,502. The non-Federal share for the same period totaled $9,627,356,951. Applying the
political subdivision percentage from the base period (4.84 percent) to the non-Federal share of expenditures during
the recession-adjustment period results in excess contributions of $145,218,212 under the aggregate method of
demonstrating compliance: [$611,175,502 – (4.84 x $9,627,256,951)] = $145,218,212.
9
 The State agency establishes interim rates and claims Medicaid reimbursement for each facility using the facility’s
most recently reviewed and approved cost report, inflated by a factor for projected labor costs and the Consumer
Price Index. Medicaid reimbursement claimed is adjusted to the facility’s actual costs when the cost report for the
applicable rate year is filed.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                         4
During the recession-adjustment period, as a result of New Jersey’s method for reimbursing its
political subdivisions for expenditures in county nursing facilities (i.e., using a “blended rate”),
counties contributed a greater percentage of the non-Federal share of expenditures. Specifically,
as the FMAP increased during the recession-adjustment period, the reimbursement to the
counties, in aggregate, did not increase at the same rate; as a result, counties funded a greater
percentage of the non-Federal share of nursing facility expenditures.

For details on the political subdivisions’ contributions to the non-Federal share of Medicaid
expenditures for county nursing facilities, see Appendix G.

SERVICES TO UNINSURED PATIENTS IN STATE AGENCY- AND
COUNTY-OPERATED PSYCHIATRIC FACILITIES

New Jersey requires that counties contribute a portion of the expenditures for uninsured residents
in State agency- and county-operated psychiatric facilities. During the base period, New Jersey
required its counties to contribute 10 percent of the total expenditures for county residents
residing in State agency- and county-operated psychiatric facilities (New Jersey Statutes
Annotated (N.J.S.A.) § 30:4-78).

In calendar years (CYs) 2009 and 2010, New Jersey law, which became effective after
September 30, 2008 (the date set out in the Recovery Act for measuring compliance with the
political subdivision requirement), required New Jersey counties to contribute 12.5 and
15 percent, respectively, of total expenditures for county residents residing in State agency- and
county-operated psychiatric facilities (Public Law 2008, chapter 35, and Public Law 2009,
chapter 68). 10

As a result, the State agency increased the political subdivisions’ non-Federal share of funding
obligations for uninsured patients in State agency- and county-operated psychiatric facilities
during the recession-adjustment period.

For details on the political subdivisions’ contributions to the non-Federal share of Medicaid
expenditures for psychiatric facilities, see Appendix G.




10
  The law setting the CY 2009 rate was passed on June 30, 2008, with an effective date of January 1, 2009. The
law setting the CY 2010 rate was passed on June 30, 2009, with an effective date of January 1, 2010. In a
November 9, 2010, letter to State Medicaid directors, CMS stated that, to show compliance with the political
subdivision requirement, State laws effective after September 30, 2008, should not have increased political
subdivisions’ percentage contributions to the non-Federal share (SMDL #10-023).

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                       5
MEDICAID-ELIGIBLE SCHOOL-BASED SERVICES

To comply with the political subdivision requirement, States that use certified public
expenditures (CPEs) 11 as a funding mechanism should have ensured that as the Federal share
increased, the reduction in the non-Federal share was credited proportionately to the contributing
public agency. 12 To comply with this requirement, States were required to review requirements
with their political subdivisions to ensure that any agreements where specific dollar amounts are
transferred were adjusted so that the overall percentage of the non-Federal share contribution
was not increased because of an increase in the FMAP rate and the reduction in the non-Federal
share.

Provisions in New Jersey Budget Appropriation Acts for State fiscal years 2008 through 2011
(Public Law 2007 through Public Law 2010) required that each local school district that
participated in the Special Education Medicaid Initiative (SEMI) receive Federal revenue that
equaled 17.5 percent of the claims (a specific dollar amount) approved by New Jersey. These
SEMI expenditures are treated as CPEs. Thus, New Jersey should have ensured that as the
Federal share increased, the reduction in the non-Federal share was credited proportionately to
the political subdivisions.

The school districts’ percentage contribution to the non-Federal share during the recession-
adjustment period exceeded the percentage during the base period because the State agency did
not credit the school districts proportionately for the reduction in the non-Federal share as the
Federal share increased under the Recovery Act. Specifically, as the Federal share increased
during the recession-adjustment period, the local school districts continued receiving
17.5 percent of the claims approved by New Jersey, thereby effectively increasing the school
districts’ contribution percentage of the non-Federal share of Medicaid-eligible services during
the recession-adjustment period. As a result, the State agency increased the school districts’
funding obligations for the non-Federal share of Medicaid-eligible services in local school
districts during the recession-adjustment period.

For details on the political subdivisions’ contributions to the non-Federal share of Medicaid
expenditures for SEMI, see Appendix G.

                                                  CONCLUSION

We determined that New Jersey did not comply with the political subdivision requirement.
Therefore, CMS could make New Jersey subject to losing all of its increased FMAP. However,
per CMS guidance, the increased FMAP would be restored if New Jersey corrected any issues by
adjusting the funding of the non-Federal share by its political subdivisions to reflect the correct
percentages as of the end of the base period.


11
  CPEs are actual expenditures that a governmental entity (e.g., county hospital, local school district) certifies it has
incurred in providing eligible Medicaid services (42 CFR 433.51).
12
     CMS, American Recovery and Reinvestment Act of 2009 Frequently Asked Questions from States, July 7, 2009.


New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                              6
In the aggregate, political subdivisions contributed 4.84 percent of the non-Federal share during
the base period and 6.35 percent of the same share during the recession-adjustment period.
Although this is a difference of approximately $145.2 million,13 New Jersey could demonstrate
compliance with the political subdivision requirement if it redistributed approximately
$45.2 million to its political subdivisions. For details on our calculation of the amount New
Jersey should redistribute to its political subdivisions, see Appendix G. 14

                                           RECOMMENDATIONS

We recommend that the State agency:

     •   redistribute approximately $45.2 million in increased FMAP funding to its political
         subdivisions to comply with the political subdivision requirement and

     •   work with CMS to ensure that, for the 6-month Recovery Act extension period ended
         June 30, 2011, political subdivisions did not contribute a greater percentage of the
         non-Federal share of Medicaid expenditures than the percentage required under the State
         Medicaid plan on September 30, 2008.

                              STATE AGENCY COMMENTS AND
                         OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially agreed with our first
recommendation (redistribution of funds) and described actions that it plans to take to address
our second recommendation. Specifically, the State agency agreed that it was not in compliance
with the political subdivision requirement for receiving increased FMAP under the Recovery
Act. However, it disagreed with the amount it must redistribute to New Jersey’s political
subdivisions for it to comply with the requirement.

According to the State agency, it does not rely on the aggregate methodology for measuring its
compliance and would need to distribute no more than $17,061,780 to local jurisdictions to be in
compliance under the payment-specific method. The State agency also took issue with how we
calculated the amount that it would need to distribute to county nursing facilities during the
recession adjustment period. The State agency also indicated that it plans to review data for the
6-month Recovery Act extension period ended June 30, 2011, and take appropriate action,
depending on how issues in this report are resolved.


13
  This amount is the result of how States were to calculate their political subdivisions’ contributions using the
aggregate method and the nature of New Jersey’s requirements for funding the non-Federal share of Medicaid
expenditures.
14
  Our calculation comprises the following expenditure categories: County Nursing Facilities ($20,883,357), State
Agency- and County-Operated Psychiatric Facilities ($10,403,984), and School-Based Health Services
($13,916,801). Our calculation of the adjustment does not include political subdivisions’ contributions to the
non-Federal share of Medicaid expenditures for certain administrative costs incurred by the counties because the
State agency did not require the political subdivisions to contribute more to this expenditure category during the
recession-adjustment period than it did during the base period.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                           7
After reviewing the State agency’s comments, we revised our finding and recommendation
related to county nursing facility expenditures. Regardless of whether the State agency relies on
either the aggregate or payment-specific method, New Jersey is subject to losing all of its
increased FMAP funding for the recession adjustment period if it does not demonstrate
compliance with the political subdivision requirement. However, New Jersey could retain the
increased FMAP if it properly adjusts its political subdivisions’ contributions during the
recession-adjustment period. We calculated that the State agency should redistribute
approximately $45.2 million to the political subdivisions for it to comply with the political
subdivision requirement and, therefore, retain the increased FMAP funding awarded during the
recession-adjustment period. The State agency’s comments appear in their entirety as
Appendix H (February 21, 2014) and Appendix I (March 31, 2014). The State agency’s
comments dated March 31, 2014, addressed only the subject of the State agency’s use of CPEs.

PAYMENT-SPECIFIC METHOD

Use of Certified Public Expenditures

State Agency Comments

The State agency stated that it fully complied with the political subdivision requirement for
expenditures related to county nursing and psychiatric facilities and that these expenditures were
incurred on a CPE basis. In its February 21, 2014, comments, the State agency stated that CMS
views reimbursements to counties of the non-Federal share in CPE cases as an internal matter
(emphasis in original) between States and counties and considers the counties, for Recovery Act
purposes, as bearing the cost of all expenditures less the Federal reimbursement the State passed
through to counties. The State agency further stated that, for each service type, the amount it
reimbursed to the counties exceeded 100 percent of the Federal share.

In its February 21, 2014, comments, the State agency stated that we did not account for county
nursing and psychiatric facility expenditures as CPEs and, therefore, significantly overstated the
amount the State agency must redistribute to counties. In its March 31, 2014, comments, the
State agency forwarded correspondence between State agency and CMS officials in which CMS
confirmed that on the basis of the State agency’s description 15 of its funding mechanism, the
State agency complied with the political subdivision requirement. On the basis of its
correspondence with CMS, the State agency requested that we withdraw our recommendation
that the State redistribute funds to county nursing homes and county psychiatric facilities.

Office of Inspector General Response

The State agency did not completely and accurately describe its funding mechanism to CMS in
its correspondence related to county nursing and psychiatric facility expenditures. Specifically,
the State agency did not fully describe the funding mechanism prescribed in its State Medicaid
plan for county nursing facility expenditures. The State Medicaid plan (Attachment 4.19-D,
§ 3.22) provides a funding methodology for county nursing expenditures based on Federal, State,

15
   The State agency described these expenditures in a March 10, 2014, letter to CMS that the State agency included
in its comments dated March 31, 2014.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                           8
and county shares of costs incurred by the facilities. (A copy of the applicable Medicaid State
plan provision is included as part of Appendix C.) The funding methodology requires both the
State and each county to contribute to the non-Federal share. As such, each county does not
contribute 100 percent of the total non-Federal share. 16 This fact was omitted from the State
agency’s correspondence with CMS regarding CPEs. The State agency similarly contributed a
portion of the non-Federal share for county psychiatric facility expenditures.

We maintain that, during the recession adjustment period, the State agency required counties to
contribute a greater percentage toward the non-Federal share of county nursing and psychiatric
facility expenditures than during the base period. To illustrate the State’s contribution amounts
and percentages of the non-Federal share of these expenditures during the base and recession-
adjustment periods, we inserted additional columns in Tables 5a, 5b, 6a, and 6b in Appendix G.
Table 1 below summarizes these percentages and demonstrates that the State contribution
percentage toward the non-Federal share decreased while counties’ contribution percentages
toward the same share increased during the recession-adjustment period, as compared to the base
period.

       Table 1: County Contribution Increased During the Recession-Adjustment Period

                                                               Recession-Adjustment
                                          Base Period                  Period
                                     County         State      County          State
       Expenditure Category        Contribution Contribution Contribution Contribution
     County Nursing Facilities       52.93%        47.07%      59.54%         40.46%
     County Psychiatric Facilities    8.37%        91.63%      10.51%         89.49%

Services in County Nursing Facilities

State Agency Comments

In its February 21, 2014, comments, 17 the State agency restated its position that it paid counties
the full amount of the Federal share for expenditures related to services in county-operated
nursing facilities during both the base and recession-adjustment periods. Further, the State
agency indicated that the draft report focused on county nursing facilities for which OIG
determined that the State paid counties a lower percentage of the non-Federal share of
expenditures in the recession-adjustment period, as compared to the base period, and ignored
those county nursing facilities for which the State paid counties a greater percentage of the
non-Federal share of expenditures. According to the State agency, it is appropriate to take into
account the aggregated total of State payments to all county nursing facilities. Therefore,

16
  This is not considered a traditional CPE funding mechanism because the State agency bore a portion of the
non-Federal share for these expenditures, whereas in a traditional CPE funding mechanism, the entire non-Federal
share is borne by the local governmental entity. We note that the State agency uses a traditional CPE funding
mechanism to reimburse local school districts for Medicaid-eligible services.
17
  Throughout the remainder of this report, we refer to these comments as the “State agency’s comments” because
the State agency’s March 31, 2014, comments dealt solely with its use of CPEs.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                         9
according to the State agency, the amount to be redistributed to counties would be reduced to
$20,883,357.

Office of Inspector General Response

We revised our finding and related recommendation to reflect that the State should redistribute
$20,883,357 to the counties to correct the problematic funding and return to the correct
percentages as of September 30, 2008. 18

Services in State Agency- and County-Operated Psychiatric Facilities

State Agency Comments

The State agency stated that it covered far more than the Federal share of Medicaid payments for
services at county-operated psychiatric facilities during the base and recession-adjustment
periods. Specifically, the State agency stated that it covered at least 85 percent of the total cost
of serving uninsured patients at these facilities and the entire cost of patients in these facilities
that had not resided for at least 5 years in the county they were being treated in.

Further, according to the State agency, the increase in the county contribution percentage
required for expenditures for county residents residing in State agency- and county-operated
psychiatric facilities—from 10 percent in CY 2008 to 12.5 percent in CY 2009—was established
by State law “enacted on or about July 1, 2008.” Therefore, according to the State agency, the
increase was the result of State law “in place as of September 30, 2008,” which would be
allowable under the Recovery Act. The State agency stated that the increase from 12.5 percent
in CY 2009 to 15 percent in CY 2010 “might arguably be seen as inconsistent” with the political
subdivision requirement. Nevertheless, the State agency stated that it was already fully
compliant with the political subdivision requirement for county psychiatric facilities because it
distributed the full Federal share of these expenditures to the counties.

Finally, the State agency stated that we did not consider the portion of the State’s expenditures
for psychiatric hospital reimbursements that exceeded annual disproportionate share hospital
(DSH) allotments that the State agency claimed on its Forms CMS-64 and for which it received
Federal matching funds. Also, according to the State agency, counties did not participate in all
of the expenditures related to State agency-operated hospitals. Therefore, the calculation of the
amount billed to the counties in excess of contribution limits needs to consider these factors.
According to the State agency, the amount of excess billing to the counties for these expenditures
was $3,144,979.



18
  The $20,883,357 represents the net amount of 12 counties’ contributions during the recession adjustment period in
excess of their percentage contributions during the base period and 5 counties’ percentage contributions during the
recession adjustment period that were less than what they contributed during the base period. The total of excess
contributions by the 12 counties was $32,761,148. For the five counties whose percentage contributions were less
than what they were required to pay during the base period, their total contributions were $11,877,791 less during
the recession adjustment period. We determined the amount to be redistributed to the counties in accordance with
SMDL #10-010 (pages 4–5).

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                      10
Office of Inspector General Response

We maintain that our finding regarding services to uninsured patients in State agency- and
county-operated psychiatric facilities is valid. CMS has interpreted the requirement that the
base-period calculation for the political subdivision requirement is established by the “Medicaid
State plan or State law as of September 30, 2008,” to mean the State plan or State law that was
“in effect on September 30, 2008” (emphasis added) 19—not whether the State plan or State law
was enacted on or before September 30, 2008. Accordingly, the date the State plan or State law
was passed or in place is not relevant when calculating base-period calculations.

While the State law increasing the county contribution percentage was enacted “on or about July
1, 2008,” as the State agency states, the effective date of the increase—from 10 percent to
12.5 percent—was January 1, 2009, 20 3 months after the political subdivision requirement’s “in
effect” date.

We disagree with the State agency’s assertion that it complied with the political subdivision
requirement for services to uninsured patients in State agency- and county-operated psychiatric
facilities. As the counties’ contribution percentage required for this expenditure category
increased from 10 percent in CY 2008, to 12.5 percent in CY 2009, and to 15 percent in
CY 2010, the State’s contribution percentage of the non-Federal share decreased. This was
inconsistent with the political subdivision requirement.

We agree that we did not consider the portion of State’s expenditures for psychiatric hospital
reimbursement that exceeded annual DSH allotments. To determine compliance with political
subdivision requirements, we were required to review only the portion of expenditures for
services to uninsured patients in State agency- and county-operated psychiatric facilities that
required Federal matching funds (i.e., annual DSH allotments claimed on Forms CMS-64) and
calculated the counties’ contributions to the non-Federal share of these expenditures. The
remaining State expenditures for psychiatric hospital reimbursements are considered an internal
matter between the State and the counties because there is no Federal and non-Federal share
amounts associated with these expenditures. Therefore, we maintain that the State should
redistribute $10,403,984 to counties for services to uninsured patients in State agency- and
county-operated psychiatric facilities.

Medicaid-Eligible School-Based Services

The State agency did not question our calculation that it would need to redistribute $13,916,801
to New Jersey school districts to be in compliance with the political subdivision requirement.




19
     CMS, SMDL # 10-023 (November 9, 2010).
20
  According to New Jersey Public Law 2008, chapter 35: “For all calendar years beginning January 1, 2009, the
total amount to be paid by the State … shall not exceed 87.5% ....”

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                      11
AGGREGATE METHOD

State Agency Comments

The State agency stated that it identified a “methodological error”—not treating county nursing
and psychiatric facility expenditures as CPEs—in our calculation of the percentage of the
non-Federal share the political subdivisions paid during both the base and recession-adjustment
periods. The State agency stated that once this error is corrected, it can demonstrate that political
subdivisions contributed 7.8 and 8.87 percent during the base and recession-adjustment periods,
respectively, resulting in a discrepancy of just over $100 million, as detailed in Appendix B of
the State agency’s response. The State agency stated that it does not rely on the aggregate
methodology for measuring its compliance with the political subdivision requirement. Rather,
the State agency stated that it would need to redistribute no more than $17,061,780 to political
subdivisions to be in compliance under the payment-specific method.

Office of Inspector General Response

We maintain that our findings and recommendations are valid. We disagree that our calculation
of the percentage contribution toward the non-Federal share that New Jersey political
subdivisions contributed during both the base and recession-adjustment periods contained a
“methodological error.” See our comments under the heading “Use of Certified Public
Expenditures.” We note that even with the claimed “methodological error,” according to State
agency’s calculations, the political subdivisions contributed a greater percentage of the
non-Federal share during the recession adjustment period than during the base period.

Regarding the State agency’s statement that it does not rely on the aggregate methodology for
measuring its compliance with the political subdivision requirement, we note that this statement
is contrary to what the State agency indicated to CMS in memoranda before the start of our audit.
Nevertheless, we note that the State agency may elect to use either the aggregate or payment-
specific method to demonstrate its compliance with the political subdivision requirement.

CONCLUSION

State Agency Comments

The State agency stated that, to demonstrate compliance with the political subdivision
requirement under the payment-specific method, the State need redistribute only $13,916,801 to
the school districts for Medicaid-eligible school-based health services and $3,144,979 to counties
for excess amounts contributed to them for State agency-operated psychiatric facilities in
CY 2010. The State agency’s comments appear in their entirety as Appendix H.

Office of Inspector General Response

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid, regardless of whether the State agency relies on either the aggregate
or payment-specific method. Using CMS guidance, we calculated that the State agency should


New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                         12
redistribute approximately $45.2 million to the political subdivisions for it to comply with the
political subdivision requirement and, therefore, retain the increased FMAP funding awarded
during the recession-adjustment period.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                         13
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                 Table 2: Reviews of States’ Eligibility for the Increased
     Federal Medical Assistance Percentage Under the Recovery and Reinvestment Act

                     Report Title                              Report Number       Date Issued
Review of the Quarterly Medicaid Statement of                  A-02-11-01004        4/17/2012
Expenditures for the Medical Assistance Program in
the U.S. Virgin Islands for the Quarter Ended
September 30, 2009
Review of New Jersey’s Compliance With the Reserve              A-02-09-01030       9/27/2010
or Rainy Day Fund Requirement for the Increased
Federal Medical Assistance Percentage Under the
American Recovery and Reinvestment Act
Review of New York State’s Compliance With the                  A-02-09-01037       8/5/2010
Prompt Pay Requirements for the Increased Federal
Medical Assistance Percentage Under the American
Recovery and Reinvestment Act of 2009
Review of New York State’s Compliance With the                  A-02-09-01029       5/26/2010
Political Subdivision Requirement for the Increased
Federal Medical Assistance Percentage Under the
American Recovery and Reinvestment Act of 2009




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                       14
 APPENDIX B: FEDERAL ELIGIBILITY REQUIREMENTS FOR THE INCREASED
 FEDERAL MEDICAL ASSISTANCE PERCENTAGE UNDER THE RECOVERY ACT

Pursuant to section 5001(g)(2) of the Recovery Act and section 10201(c)(6) of the Affordable
Care Act, a State is not eligible for the increased FMAP if it requires its political subdivisions to
pay a greater percentage of the non-Federal share of Medicaid expenditures than the percentage
required under the State Medicaid plan or State law on September 30, 2008.

In SMDL # 10-010, dated June 21, 2010, CMS indicated that States attested to their compliance
with the political subdivision requirement of the Recovery Act when they accessed increased
FMAP funds. States could demonstrate compliance with the requirement under either the
aggregate or payment-specific method of measuring nonvoluntary contributions by their political
subdivisions toward the non-Federal share of Medicaid expenditures.

The aggregate method includes an analysis of total annual program costs (medical and
administrative) for the Medicaid program as it existed under the Medicaid State plan on
September 30, 2008. To measure base period financing of the Medicaid program, the analysis
should include total annual program costs for the 12 months ended on September 30, 2008 (base
period). For the base period, the State would determine the percentage of aggregate funding of
the non-Federal share that was required to be furnished by political subdivisions. To determine
compliance with the Recovery Act, the State would compare the base percentage to the
percentage of aggregate funding of the non-Federal share required of the political subdivisions
during the recession-adjustment period. The State would demonstrate compliance if the
percentage during the recession-adjustment period is no greater than the percentage during the
base period.

Under the payment-specific approach, the State would compare the percentage of the
non-Federal share funded by political subdivisions for each type of expenditure (for which the
State requires the political subdivisions to share the funding of the non-Federal Share) in the base
period, with the funding obligation for the same types of expenditure during the recession-
adjustment period. The State would demonstrate compliance if there were no increases in the
political subdivision funding obligations for any type of expenditure.

Pursuant to section 10201(c)(6) of the Affordable Care Act and SMDL # 10-023, dated
November 9, 2010, to comply with the political subdivision provision, the maximum percentage
contributions that political subdivisions are required to contribute in any quarter must reflect “the
requirements of the Medicaid State plan, or State law, as provided by this subsection” as of
September 30, 2008. If the State plan or State law in effect on September 30, 2008, provided for
changes in the percentage contributions or dollar amount contributions by political subdivisions,
those changes must be given effect during the recessionary adjustment period.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                          15
In “American Recovery and Reinvestment Act of 2009 Frequently Asked Questions from States,
July 7, 2009,” CMS stated, that under a CPE financing mechanism, the applicable percentage of
the non-Federal share for claiming purposes is no less than 100 percent (but could be more if the
State does not share the Federal payment with the subdivision). The State should ensure that, as
the Federal share increases, the reduction in the non-Federal share is credited proportionately to
the contributing public agency CPEs.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                      16
     APPENDIX C: NEW JERSEY REQUIREMENTS FOR CONTRIBUTIONS BY
     POLITICAL SUBDIVISIONS TO THE NON-FEDERAL SHARE OF CERTAIN
                       MEDICAID EXPENDITURES

NEW JERSEY REQUIREMENTS

New Jersey’s requirements for contributions by political subdivisions to the non-Federal share of
certain categories of Medicaid expenditures are contained in Title 30 of the N.J.S.A., the New
Jersey Budget Appropriation Acts, and in the Medicaid State plan.

Pursuant to New Jersey’s Medicaid State plan (Attachment 4.19-D, § 3.22), funding for county-
administered skilled nursing facilities is composed of: the Federal share, which will be 50
percent of the cost on the basis of recognition of total actual costs incurred; New Jersey’s share,
which will continue as if there were no governmental peer grouping; and the contribution from
each county that has a county-administered skilled nursing facility, which will be the difference
between New Jersey’s share and the total non-Federal share of the Medicaid rate. (See the
following page for a copy of the Medicaid State plan provision related to funding county nursing
facilities.)

Pursuant to N.J.S.A. § 30:4-68, each county bears the cost of care and maintenance for a patient
who has a legal settlement in the county and is not able to pay the cost of his or her
hospitalization. N.J.S.A. § 30:4-78 requires that the county share of payments to State agency-
and county-operated psychiatric facilities for the reasonable cost of maintenance of county
patients be 10 percent, as of September 30, 2008. Beginning in CY 2009, the county
contribution percentage increased to 12.5 percent, per the New Jersey Budget Appropriation Acts
(Public Law 2008) and to 15 percent for CY 2010 (Public Law 2009, chapter 68).

Provisions in New Jersey Budget Appropriation Acts for State fiscal years 2008 through 2011
stated that each local school district that participates in SEMI should receive a percentage of the
Federal revenue realized for the current year claims. The percentage share should have been
17.5 percent of claims approved by New Jersey by June 30.

Pursuant to New Jersey’s Medicaid State plan, § 6.3(a), there is local financial participation in
the administration of the Medicaid program. County contributions are determined by the annual
budgeting process.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                        17
STATE PLAN PROVISION FOR FUNDING COUNTY NURSING FACILITIES 





                                                                                             Attachment 4.19-D
                                                                                                     Page 134

                             3.22 FUNDING
                             The funding for Class II Nursing Facilities will be comprised of the
                             following :


                                  1. The federal share will be 50 percent of the cost based upon 

                                  recognition of total actual costs incurred by the Class II 

                                  Nursing Facilities . 



                                  2. The State share will continue as if there were no 

                                  governmental peer grouping. 



                                  3 . The contribution from each county which has a Class II 

                                  nursing facility will be the difference between the State share 

                                  and the total non-federal share of the Medicaid rate. 





                                                                                    04-11-MA(NJ)

                 TN     04 -{    l                         Approval Date    JUN- 6 2006 

                 Supersedes TN: 95-14-MA (NJ)              Effective Date   OCT - 3 2004 





New Jersey Did Not Comply With Recovery ActRequirements for Receiving Increased
Federal Medical Assistance (A-02-11-01 039)                                                                  18
                   APPENDIX D: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed New Jersey political subdivisions’ contributions to the non-Federal portion of total
Medicaid expenditures reported on the State agency’s Forms CMS-64 for the 12-month base
period (ended September 30, 2008) and for the recession-adjustment period (October 1, 2008,
through December 31, 2010).

We did not assess the State agency’s overall internal control structure. We limited our review of
internal controls to those applicable to our objective, which did not require an understanding of
all internal controls over the Medicaid program. We reviewed the State agency’s procedures for
disbursing the increased FMAP benefit to its political subdivisions. We did not assess the
appropriateness of Medicaid payments for any of the categories of expenditures for which the
State agency requires its political subdivisions to contribute to the non-Federal share of Medicaid
expenditures.

We performed our fieldwork at the State agency’s offices in Trenton, New Jersey, and at five
county government offices from September 2011 through December 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal and State requirements;

    •   met with CMS financial and program management officials to identify New Jersey’s
        requirements for local financial participation toward Medicaid claims;

    •   met with State agency and county government officials to gain an understanding of New
        Jersey’s requirements and procedures for determining the political subdivisions’ share of
        Medicaid payments and any changes made to those requirements and procedures
        beginning October 1, 2008;

    •   obtained and reviewed total computable Medicaid expenditures (medical and
        administrative) on the State agency’s Forms CMS-64 for all quarters in the base and
        recession-adjustment periods;

    •   computed the total non-Federal share of Medicaid expenditures reported on the State
        agency’s Forms CMS-64 for all quarters in the base and recession-adjustment periods, on
        the basis of Federal requirements for determining the non-Federal share;

    •   obtained and reviewed the State agency’s spreadsheets detailing its political subdivisions’
        contributions to the non-Federal share of Medicaid expenditures during the base and
        recession-adjustment periods;


New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                       19
     •   obtained the source data 21 for the Medicaid expenditures in each of the four expenditure
         categories for which New Jersey requires political subdivisions to contribute to the non-
         Federal share of Medicaid expenditures 22 and, for each expenditure category, determined
         the political subdivisions’ contributions and percentages of the non-Federal share of
         Medicaid expenditures for the base and recession-adjustment periods;

     •   computed aggregate contributions by the political subdivisions for the four expenditure
         categories and the respective percentages of non-Federal share for the base and recession-
         adjustment periods;

     •   determined the State agency’s compliance with the political subdivision requirement of
         the Recovery Act by comparing the two percentages for the total political subdivisions’
         contributions to the non-Federal share of Medicaid expenditures;

     •   summarized results, including the amount of excess contributions to the non-Federal
         share of Medicaid expenditures by political subdivisions during the recession-adjustment
         period; and

     •   discussed our results with State agency officials.

See Appendix E for our calculation of New Jersey’s compliance with the political subdivision
requirement of the Recovery Act under the aggregate method and Appendix F for the political
subdivisions’ contributions to the non-Federal share for each of the categories of expenditures
for which New Jersey requires local financial participation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




21
  Source data included county nursing facilities’ Medicaid cost reports and reimbursement data obtained from State
agency officials, the Medicaid Management Information System, State agency- and county-operated psychiatric
facilities’ DSH payment and State appropriations information, local school districts’ SEMI expenditures
information, and county welfare agencies’ administrative expenditures reports.
22
  For the quarter ended June 30, 2008, the amount of administrative costs indicated on the source document was
$180,000 ($90,000 Federal share) less than what was reported on the Form CMS-64. The State agency stated that
this variance was due to a clerical error.

New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                       20
                  APPENDIX E: AGGREGATE METHOD CALCULATION

   Table 3: Political Subdivisions’ Percentage Contribution of the Non-Federal Share of
                               Total Medicaid Program Costs

                               Table 3a: Base Period (10/1/07-9/30/08)
                                                                               Subdivisions’
             Total Medicaid                                                    Contribution
                                    Federal Share          Non-Federal
              Expenditures                                                      to the Non-
                                   (From CMS-64)             Share
             (From CMS-64)                                                        Federal
                                                                                   Share
             $10,059,236,686        $5,074,091,049        $4,985,145,637       $241,277,535
                                                             100.00%               4.84%

                   Table 3b: Recession-Adjustment Period (10/1/08-12/31/10)
                                                                    Subdivisions’
             Total Medicaid                                         Contribution
                                Federal Share     Non-Federal
              Expenditures                                           to the Non-
                               (From CMS-64)          Share
             (From CMS-64)                                             Federal
                                                                        Share
             $23,671,092,593 $14,043,735,642 $9,627,356,951         $611,175,502
                                                    100.00%             6.35%




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                     21
           APPENDIX F: POLITICAL SUBDIVISIONS’ CONTRIBUTION TO THE NON-FEDERAL SHARE OF
                                NEW JERSEY’S MEDICAID EXPENDITURES

                                                Table 4a: Base Period (10/1/2007-9/30/2008)
                                                                                                                       Subdivision
                                                                                                                      Contribution to
                                                               Total                                 Non-Federal         the Non-
                      Medicaid Services                     Expenditures           Federal Share       Share          Federal Share
         County Nursing Facilities                            $358,180,482           $179,090,241     $179,090,241        $94,787,436
         State Agency- and County-Operated
                                                                 597,177,616          298,588,808      298,588,808        20,799,288
         Psychiatric Facilities
         School-Based Services                                    89,656,852            44,828,426      44,828,426        73,966,903
         Certain Administrative Costs Incurred by
                                                                 163,157,686           84,835,066       78,322,620        51,723,908
         Counties
         Subtotal                                             1,208,172,636            607,342,541      600,830,095      241,277,535
         Subtotal—Other Expenditures                          8,851,064,050          4,466,748,508    4,384,315,542                0
           Total                                            $10,059,236,686         $5,074,091,049   $4,985,145,637     $241,277,535

                                         Table 4b: Recession-Adjustment Period (10/1/2008-12/31/10)
                                                                                                                       Subdivision
                                                                                                                      Contribution to
                                                               Total                                 Non-Federal         the Non-
                      Medicaid Services                     Expenditures           Federal Share       Share          Federal Share
         County Nursing Facilities                            $795,761,095           $485,076,117     $310,684,978      $184,993,887
         State Agency- and County-Operated
                                                                 981,297,723          490,648,862      490,648,862        44,565,613
         Psychiatric Facilities
         School-Based Services                                   351,937,576          215,731,078      136,206,498       290,348,500
         Certain Administrative Costs Incurred by
                                                                 329,840,281          172,885,475      156,954,806        91,267,502
         Counties
         Subtotal                                             2,458,836,675          1,364,341,532    1,094,495,144      611,175,502
         Subtotal—Other Expenditures                         21,212,255,918         12,679,394,110    8,532,861,807                0
           Total                                            $23,671,092,593        $14,043,735,642   $9,627,356,951     $611,175,502



New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                                              22
                            APPENDIX G: AMOUNTS TO BE REDISTRIBUTED TO POLITICAL SUBDIVISIONS
                               FOR NEW JERSEY TO COMPLY WITH RECOVERY ACT REQUIREMENTS

                                                       Table 5a: County Nursing Facility Expenditures
                                                              Base Period (10/1/2007-9/30/2008)

                                                                                                                               County           State
                                                                                                                            Contribution    Contribution
                                                                                                                            Percentage to   Percentage to
                                                                               Amount                                         the Non-        the Non-
                        Total              Federal           Non-Federal    Reimbursed         County           State          Federal         Federal
  County            Expenditures            Share               Share        to Counties    Contribution    Contribution        Share           Share
  Atlantic            $13,021,968          $6,510,984          $6,510,984     $11,223,350      $1,798,619      $4,712,366       27.62           72.38
  Bergen               63,493,085          31,746,542          31,746,542      47,695,010      15,798,074      15,948,468       49.76           50.24
Burlington             14,409,130           7,204,565           7,204,565      11,396,745       3,012,385       4,192,180       41.81           58.19
  Camden               24,374,481          12,187,241          12,187,241      19,245,559       5,128,922       7,058,318       42.08           57.92
 Cape May              13,906,850           6,953,425           6,953,425      10,598,562       3,308,288       3,645,137       47.58           52.42
Cumberland             11,488,493           5,744,247           5,744,247      10,079,992       1,408,502       4,335,745       24.52           75.48
Gloucester              6,762,138           3,381,069           3,381,069       4,300,247       2,461,891         919,178       72.81           27.19
  Hudson               18,038,267           9,019,133           9,019,133      16,687,269       1,350,998       7,668,135       14.98           85.02
  Mercer               13,312,348           6,656,174           6,656,174       7,932,140       5,380,208       1,275,966       80.83           19.17
 Middlesex             33,129,748          16,564,874          16,564,874      24,465,524       8,664,224       7,900,650       52.30           47.70
Monmouth               24,432,923          12,216,462          12,216,462      18,817,645       5,615,278       6,601,183       45.96           54.04
  Morris               26,072,363          13,036,182          13,036,182      18,871,789       7,200,574       5,835,608       55.24           44.76
  Passaic              39,603,536          19,801,768          19,801,768      24,059,591      15,543,945       4,257,823       78.50           21.50
   Salem                6,634,785           3,317,392           3,317,392       5,088,012       1,546,773       1,770,619       46.63           53.37
  Sussex                6,232,630           3,116,315           3,116,315       5,244,991         987,638       2,128,676       31.69           68.31
   Union               28,956,895          14,478,447          14,478,447      15,664,559      13,292,335       1,186,112       91.81            8.19
  Warren               14,310,842           7,155,421           7,155,421      12,022,062       2,288,780       4,866,641       31.99           68.01
   Total             $358,180,482        $179,090,241        $179,090,241   $263,393,046*    $94,787,436*    $84,302,805*       52.93           47.07
*
    Differences in total calculations are due to rounding.




    New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
    Federal Medical Assistance (A-02-11-01039)                                                                                                       23
                                                      Table 5b: County Nursing Facility Expenditures
                                                      Recession-Adjustment Period (10/1/2008-12/31/10)

                                                                                                                               County            State
                                                                                                                            Contribution    Contribution
                                                                                                                            Percentage to    Percentage
                                                                               Amount                                         the Non-       to the Non-
                         Total             Federal           Non-Federal     Reimbursed        County           State          Federal         Federal
      County         Expenditures           Share                Share       to Counties    Contribution    Contribution        Share           Share
      Atlantic        $29,611,714        $18,056,048          $11,555,666    $25,553,711     $4,058,003      $7,497,663         35.12            64.88
      Bergen          127,649,860        77,728,734           49,921,126     111,879,493     15,770,367      34,150,759         31.59            68.41
    Burlington         30,991,405        18,888,664           12,102,741      27,171,559      3,819,845       8,282,895         31.56            68.44
      Camden           56,494,938        34,444,455           22,050,483      44,257,491     12,237,447       9,813,035         55.50            44.50
     Cape May          30,278,368        18,455,519           11,822,849      25,035,161      5,243,207       6,579,642         44.35            55.65
    Cumberland         25,281,365        15,405,190            9,876,175      23,018,525      2,262,841       7,613,335         22.91            77.09
    Gloucester         15,175,715         9,255,802            5,919,913       9,228,399      5,947,316           0            100.46             0.00
      Hudson           43,896,435        26,769,931           17,126,504      42,355,618      1,540,817      15,585,687          9.00            91.00
      Mercer           27,741,341        16,907,657           10,833,684      16,304,246     11,437,096           0            105.57             0.00
     Middlesex         73,761,985        44,960,441           28,801,544      56,933,752     16,828,233      11,973,311         58.43            41.57
    Monmouth           53,460,359        32,593,161           20,867,198      41,460,534     11,999,825       8,867,374         57.51            42.49
      Morris           58,646,356        35,767,038           22,879,318      44,139,539     14,506,817       8,372,501         63.41            36.59
      Passaic          97,044,684        59,198,863           37,845,821      54,774,592     42,270,092           0            111.69             0.00
       Salem           15,776,070         9,622,486            6,153,584      11,539,805      4,236,265       1,917,319         68.84            31.16
      Sussex           15,626,673         9,532,099            6,094,574      12,792,098      2,834,575       3,259,999         46.51            53.49
       Union           61,944,954        37,752,995           24,191,959      37,278,689     24,666,265           0            101.96             0.00
      Warren           32,378,872        19,737,033           12,641,839      27,043,994      5,334,877       7,306,962         42.20            57.80
       Total         $795,761,095       $485,076,117         $310,684,978   $610,767,207*   $184,993,887*   $125,691,090*       59.54            40.46
*
    Differences in total calculations are due to rounding.




    New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
    Federal Medical Assistance (A-02-11-01039)                                                                                                       24
                                                Table 5c: County Nursing Facility Expenditures
                                              Adjustment of Increased Federal Medicaid Assistance

                                                                                  Maximum
                                                          County              Allowable County
                                                       Contribution             Contribution        Adjustment of
                                                     During Recession-        During Recession-   Increased Federal
                                                       Adjustment                Adjustment           Medicaid
                                   County                 Period                   Period             Assistance
                                 Atlantic               $4,058,003                 $3,192,180             $865,823
                                 Bergen                 15,770,367                 24,842,316          (9,071,950)
                                 Burlington               3,819,845                 5,060,419          (1,240,573)
                                 Camden                 12,237,447                  9,279,805            2,957,642
                                 Cape May                 5,243,207                 5,625,054            (381,847)
                                 Cumberland               2,262,841                 2,421,660            (158,819)
                                 Gloucester               5,947,316                 4,310,525            1,636,791
                                 Hudson                   1,540,817                 2,565,421          (1,024,603)
                                 Mercer                 11,437,096                  8,756,904            2,680,192
                                 Middlesex              16,828,233                 15,064,590            1,763,642
                                 Monmouth               11,999,825                  9,591,576            2,408,248
                                 Morris                 14,506,817                 12,637,460            1,869,357
                                 Passaic                42,270,092                 29,708,123          12,561,968
                                 Salem                    4,236,265                 2,869,181            1,367,084
                                 Sussex                   2,834,575                 1,931,524              903,051
                                 Union                  24,666,265                 22,210,090            2,456,174
                                 Warren                   5,334,877                 4,043,702            1,291,176
                                  Total               $184,993,887               $164,110,530         $20,883,357
                                 *
                                     Differences in total calculations are due to rounding.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                            25
                                 Table 6a: State Agency- and County-Operated Psychiatric Facility Expenditures
                                                       Base Period (10/1/2007-9/30/2008)

                                                                                                                                          State
                                                                                                                         County      Contribution
                                                                                                                      Contribution    Percentage
         State                                                                                                        Percentage to   to the Non-
      Psychiatric             Total                              Non-Federal              County          State         the Non-        Federal
       Facility           Expenditures           Federal Share      Share              Contribution    Contribution   Federal Share      Share
    Ancora                 $154,571,944           $77,285,972     $77,285,972            $5,023,601     $72,262,371             6.50      93.50
    Trenton                 122,091,291            61,045,646      61,045,646             4,176,464      56,869,181             6.84      93.16
    Greystone               136,806,669            68,403,335      68,403,335             4,793,715      63,609,620             7.00      92.99
    Hagedorn                 45,357,098            22,678,549      22,678,549             1,018,167      21,660,382             4.48      95.51
     Subtotal              $458,827,002          $229,413,501    $229,413,501          $15,011,946*    214,401,555*             6.54      93.46

                                                                                                                                          State
                                                                                                                         County      Contribution
                                                                                                                      Contribution    Percentage
        County                                                                                                        Percentage to   to the Non-
      Psychiatric             Total                              Non-Federal              County          State         the Non-        Federal
        Facility           Expenditures          Federal Share      Share               Contribution   Contribution   Federal Share      Share
    Camden                  $34,436,472           $17,218,236     $17,218,236            $1,358,887      15,859,349             7.89      92.11
    Essex                    45,840,771            22,920,386      22,920,386             1,757,818      21,162,567             7.66      92.33
    Burlington                4,266,128             2,133,064       2,133,064               172,028       1,961,036             8.06      91.94
    Bergen Pines             34,781,239            17,390,620      17,390,620             1,698,377      15,692,243             9.76      90.23
    Hudson                   17,814,136             8,907,068       8,907,068               749,938       8,157,130             8.41      91.58
    Union                     1,211,868               605,934         605,934                50,293         555,641             8.30      91.70
     Subtotal               138,350,614            69,175,307      69,175,307            5,787,342*     63,387,965*             8.37      91.63
     Total                 $597,177,616          $298,588,808    $298,588,808          $20,799,288*    277,789,520*             6.97      93.03
*
    Differences in total calculations are due to rounding.




    New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
    Federal Medical Assistance (A-02-11-01039)                                                                                                 26
                                 Table 6b: State Agency- and County-Operated Psychiatric Facility Expenditures
                                                Recession-Adjustment Period (10/1/2008-12/31/10)

                                                                                                                          County         State
                                                                                                                       Contribution Contribution
                                                                                                                        Percentage   Percentage
         State                                                                                                          to the Non-  to the Non-
      Psychiatric              Total                                Non-Federal            County          State          Federal      Federal
        Facility            Expenditures            Federal Share      Share            Contribution   Contribution        Share        Share
    Ancora                  $274,905,860             $137,452,930   $137,452,930        $11,958,696     $125,494,234           8.70      91.30
    Trenton                  169,655,133               84,827,567     84,827,567          7,796,649       77,030,917           9.19      90.81
    Greystone                192,956,827               96,478,414     96,478,414          8,577,291       87,901,123           8.89      91.11
    Hagedorn                  83,090,923               41,545,462     41,545,462          2,539,922       39,005,539           6.11      93.89
     Subtotal               $720,608,743             $360,304,372   $360,304,372       $30,872,559*    $329,431,813*           8.57      91.43

                                                                                                                          County         State
                                                                                                                       Contribution Contribution
                                                                                                                        Percentage   Percentage
        County                                                                                                          to the Non-  to the Non-
      Psychiatric              Total                                Non-Federal            County          State          Federal      Federal
        Facility            Expenditures           Federal Share       Share            Contribution   Contribution        Share        Share
    Camden                   $70,336,351            $35,168,176      $35,168,176         $3,512,813      $31,655,362           9.99      90.01
    Essex                     96,341,920             48,170,960       48,170,960          4,440,633       43,730,327           9.22      90.78
    Burlington                 4,969,300              2,484,650        2,484,650            269,764        2,214,886          10.86      89.14
    Bergen Pines              57,392,127             28,696,064       28,696,064          3,593,700       25,102,364          12.52      87.48
    Hudson                    18,487,221              9,243,611        9,243,611          1,133,126        8,110,484          12.26      87.74
    Union                     13,162,061              6,581,031        6,581,031            743,018        5,838,012          11.29      88.71
     Subtotal                260,688,980            130,344,490      130,344,490        13,693,054*     116,651,436*          10.51      89.49
     Total                  $981,297,723           $490,648,862     $490,648,862       $44,565,613*    $446,083,249*           9.08      90.92
*
    Differences in total calculations are due to rounding.




    New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
    Federal Medical Assistance (A-02-11-01039)                                                                                                27
                             Table 6c: State Agency- and County-Operated Psychiatric Facility Expenditures
                                        Redistribution of Increased Federal Medicaid Assistance

                                                                              Maximum Allowable
                                                   County Contribution        County Contribution     Redistribution of
                      State Psychiatric             During Recession-          During Recession-     Increased Federal
                           Facility                 Adjustment Period          Adjustment Period    Medicaid Assistance
                     Ancora                             $11,958,696                 $8,934,462           $3,024,234
                     Trenton                              7,796,649                  5,803,514            1,993,135
                     Greystone                            8,577,291                  6,761,220            1,816,071
                     Hagedorn                             2,539,922                  1,865,208              674,714
                      Subtotal                         $30,872,559*               $23,364,405*          $7,508,153*

                                                                              Maximum Allowable
                                                   County Contribution        County Contribution     Redistribution of
                     County Psychiatric             During Recession-          During Recession-     Increased Federal
                           Facility                 Adjustment Period          Adjustment Period    Medicaid Assistance
                     Camden                              $3,512,813                 $2,775,521            $737,292
                     Essex                                4,440,633                  3,694,344              746,288
                     Burlington                             269,764                    200,383               69,381
                     Bergen Pines                         3,593,700                  2,802,472              791,228
                     Hudson                               1,133,126                    778,274              354,852
                     Union                                  743,018                    546,228              196,790
                      Subtotal                         $13,693,054*               $10,797,223*          $2,895,831*

                       Total                             $44,565,613*              $34,161,629*       $10,403,984*
                 *
                     Differences in total calculations are due to rounding.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                                28
                                                Table 7a: School-Based Health Services Expenditures
                                                          Base Period (10/1/2007-9/30/2008)

                                                                                               Local School
            School-Based                                              Distribution to Local      Districts’      Local School Districts’
           Health Services         Federal           Non-Federal         School Districts     Portion of Total    Percentage of Non-
            Expenditures            Share               Share        (17.5% x Expenditures)    Expenditures         Federal Share
             $89,656,852          $44,828,426          $44,828,426        $15,689,949*         $73,966,903*             165.00*
       *
           Differences in total calculations are due to rounding.

                                                Table 7b: School-Based Health Services Expenditures
                                                 Recession-Adjustment Period (10/1/2008-12/31/10)

                                                                                               Local School
            School-Based                                              Distribution to Local      Districts’      Local School Districts’
           Health Services        Federal            Non-Federal         School Districts     Portion of Total    Percentage of Non-
            Expenditures           Share                Share        (17.5% x Expenditures)    Expenditures         Federal Share
            $351,937,576        $215,731,078          $136,206,498        $61,589,076*        $290,348,500*             213.70*
       *
           Differences in total calculations are due to rounding.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                                                 29
                                                 Table 7c: School-Based Health Services Expenditures
                                                Redistribution of Increased Federal Medicaid Assistance

                                            Quarters End 12/31/2008 and 3/31/2009—58.78 Percent FMAP

                                                                                                                        Local School
                                                                              Percentage     Distribution to Local
       School-Based                                            Decrease in                                                Districts’
                               Federal         Non-Federal                    Decrease in      School Districts
      Health Services                                          Non-Federal                                           Proportionate Share
                                Share            Share                        Non-Federal          (17.5% x
       Expenditures                                              Share                                               of Reduction in the
                                                                                Share           Expenditures)
                                                                                                                      Non-Federal Share
           $36,557,844       $21,488,701         $15,069,143     $3,209,779          17.56             $6,397,623*            $1,123,423*

                                        Quarters Ended 6/30/2009 through 12/31/2010—61.59 Percent FMAP

                                                                                                                        Local School
                                                                              Percentage     Distribution to Local
       School-Based                                            Decrease in                                                Districts’
                               Federal         Non-Federal                    Decrease in      School Districts
      Health Services                                          Non-Federal                                           Proportionate Share
                                Share            Share                        Non-Federal          (17.5% x
       Expenditures                                              Share                                               of Reduction in the
                                                                                Share           Expenditures)
                                                                                                                      Non-Federal Share
          $315,379,732 $194,242,377            $121,137,355     $36,552,511          23.18            $55,191,453            $12,793,379*

      Total Local School Districts’ Redistribution of the Proportionate Share of Reduction in the Non-Federal
      Share During the Recession-Adjustment Period                                                                           $13,916,801*
  *
      Differences in total calculations are due to rounding.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A-02-11-01039)                                                                                                  30
      APPENDIX H: STATE AGENCY COMMENTS DATED FEBRUARY 21,2014 





                                               State of New Jersey
                                                  DEPARTMENT OF H UMAN SERVICES
                                       D IVISION OF MEDICAL ASS ISTANCE AND HEALTH SERVICES
      CHRIS CHRISTIE                                          P.O. Box 712                                 JENNIFER VELEZ
        Governor                                         Trenton, NJ 08625-07 12                            Commissioner

      KIM GUADAGNO 	                                                                                        VALERIE HARR
        Lt. Governor 	                                                                                        Director

                                                                          February 21 , 2014

               James P. Edert
               Regional Inspector General for Audit Services
               Department of Health and Human Services
               Office of Inspector General
               Office of Audit Services, Region II
               Jacob K. Javits Federal Building
               26 Federal Plaza, Room 3900
               New York, NY 10278

               Re: 	     New Jersey Response-Draft Audit Report on Political Subdivision Requirement
                         Under the Recovery Act, A-02-11-01039

               Dear Mr. Edert:

               This letter provides the New Jersey Department of Human Services's ("State" or "DHS")
               response to the Department of Health and Human Services Office of the Inspector General's
               ("OIG") draft audit report A-02-11-01039 entitled New Jersey Did Not Comply with Recovery Act
               Requirements for Receiving Increased Federal Medicaid Assistance.
               Section 5001 (g)(2) of the American Recovery and Reinvestment Act of 2009 ("ARRA"), as
               clarified by section 10201(c)(6) of the Patient Protection and Affordable Care Act ("ACA"),
               requires, as a condition of eligibility for the enhanced Federal medical assistance percentage
               ("FMAP") provided by ARRA, that a state not require political subdivisions to pay a greater
               percentage of the non-federal share of expenditures subject to the enhanced FMAP, or of
               disproportionate share hospital ("DSH") expenditures, than would have been required under the
               state plan, state law, or both, as in effect on September 30, 2008.
               DHS does not agree that OIG's findings support the draft audit report's recommendation that the
              State redistribute approximately $57 million in increased FMAP funding to New Jersey political
              subdivisions. As explained below, the State would need to distribute only $1 7,061 ,780 to local
              j urisdictions to be fully compliant with the local jurisdictions share requirement. As for the six­
              month ARRA extension period ended June 30, 2011 , we are reviewing the data and will take
              appropriate action depending on how the issues identified in the draft audit are resolved.

              In State Medicaid Director Letter (SMDL) # 10-010 ("SMDL 10-01 0"), issued on June 21 , 2010,
              CMS established two ways that a state may demonstrate compliance with the local jurisdictions
              share requirement: (1) the payment-specific method and (2) the aggregate method. Letter from
              Ctr. for Medicaid, CHIP, and Survey & Certification, CMS, to State Medicaid Directors 4 (June
              21 , 2010), at 3-5.




                                                New Jersey Is An Equal Opportunity Employer




New J ersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medica/Assistance (A -02-1 1-01039)                                                                                 31
             James P. Edert
             February 2 1,2014
             Page 2

             I.     Payment-Specific Method

             Under the payment-speci fic methodology, a state demonstrates compliance if the percentage of
             the non-Federal expenditures paid for by the state's politica l subdivisions , for an expenditure
             type in t he ARRA Period (October 1, 2008 through December 31, 2010}, does not increase
             above the comparable percentage used to measure compliance during the Base Period
             (October 1, 2007 through September 30, 2008) .

             OIG's draft report concludes that New Jersey did not comply with the ARRA political subdivision
             requirement for expenditures for services provided in county nursing facilit ies, services to
             uninsured patients in county and state psychiatric hospitals, and Medica id-eligible health
             services provided by local school districts. T his response discusses a primary flaw in t he draft
             audit report's analysis, which if corrected, demonstrates that the State complied in full with the
             political subdivision requirement for both county psychiatric facilities and county nursing
             facilities, before addressing ea ch expenditure type in turn.

                    A.      Compliance in the CPE Context

             The draft audit report misreads the ARRA politica l subdivision requirement as be ing violated
             even where, as here, the reported Medicaid expenditure is based on certified public
             expenditures (CPE) and the State passes throug h to counties the full Federal share of Medicaid
             expenditures, during both the Base and ARRA Periods. Such a result directly contradicts the
             purpose of the political subdivision requirement and specific CMS guidance addressing the
             application of this requirement in the CPE context.

             In SMDL 10-010, CMS exp lained that Section 5001(g)(2) of ARRA "seeks to prohibit States
             from shifting Medicaid costs to political subdivisions and to ensure that States share the
             increased Federal matching dollars generated by the FMAP increase w ith political subdivisions."
             SMDL 10-010, at 2 (emphases added). The agency further clarified that "[i]n measuring
             compliance with this provision . .. , CMS seeks to ensure that political subdivisions are not
             shouldering a greater percentage of fund ing of the Medicaid program without stifl ing States'
             ability to manage or modify their Medica id programs." /d. (emphasis added). The quoted
             language expressly provides that CMS understands Congress's intent as req uiring States to
             share increased Federal reimbursement from the enhanced FMAP with political subd ivisions.

             In a gu idance document addressing states' frequent!'/ asked questicns about .A.RRA , CMS
             reiterated that Section 5001 (g)(2) of ARRA focuses only on whether the State shares temporary
             increases in FMAP with its political subdivisions. Specifically, CMS cla rified that "[u]nder a CPE
             financing mechanism[,] the applicable [county] percentage of the non-Federal share for [ARRA
             Federal) claiming purposes is no less than 100 percent (but could be more if the State does not
             share with the subdivision the Federal payment)." Ctr. for Medicaid and State Operations, CMS,
             American Recovery and Reinvestment Act of 2009 Frequently Asked Questions from States 14
             (July 7, 2009) (emphasis added) [hereinafter CMS ARRA FAQs). Under CMS's interpretation ,
             when states share with counties the full Federal payment, the county percentage of the non­
             Federal share of CPEs for ARRA Federal claiming purposes is 100 percent.

             The county percentage does not decrease below 100 percent even if the State, in addition to
             passing the full federal contribution to the county, also reimbu rses the county for any part of the
             expenditures out of state funds. In effect, CMS views reimbursements to the counties of the




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa/ Medica/ Assistance (A -02-1 1-01039)                                                                        32
             James P. Edert
             Febmary 21 ,2014
             Page 3

             non-federal share in CPE cases as an internal matter between the State and the counties , and
             considers the counties, for ARRA purposes, as bearing the cost of all expenditures less the
             Federal reimbursement the State passed through to the counties .1

             The State fully complied with the political subdivision requirement for expenditures for county
             psychiatric facilities and county nursing facilities, both of which were incurred on a CPE basis.
             Table 1 below lists the total amount certified for each category of expenditure, the federal share,
             the non-federal share, and the amount of such expenditures reimbursed to counties. All figures
             have been taken from Tables 4a , 4b, Sa, and Sb of Appendix G to the draft audit report. For
             each service type, the amount reimbursed to the counties is well in excess of 100 percent, the
             full amount, of the Federal share. This demonstrates that all of the enhanced FMAP the State
             received for these services during the ARRA period was passed through in full to the political
             subdivisions. Thus, the State need not redistribute any additional funds on account of the county
             nursing or county psychiatric fact!ity claims.

             Table 1 - Amount Reimbursed to Counties for Certifying County Facilities Relative to
             Non-Federal Share

             A                               B                    c                   D                   E                    F
                                                                                                                               County
                                                                                                                               Percentage
                                             Total                                                        Amount               of    Non-
                                                                  Federal             Non-Federal
             Type of Service                 Expenditures                                                 Reimbursed           Federal
                                                                  Share               Share
                                             Certified                                                    to Counties 2        Share Per
                                                                                                                               CMS
                                                                                                                               Guidance
             Base Period (10/1/2007-9/30/2008)
             County        Nursing $358,180,482                   $179,090,241        $179,090,241        $263 ,393,046        100%
             Facilities
             County     Psychiatric 138,350,614                   69,1 75,307         69,175,307           132,563,272         100%
             Facilities

             ARRA Period (1 0/1/2008-12/31/2010)
             County        Nursing 795,761 ,095                   485,076,117         310,684,978         610,767,207          100%
             Facilities
             County     Psychiatric 260,688,980                   •j 30, 344,490      130,344,490          246,995,926         100%
             Facilities




             1
               This follows from the fact that in the CPE context, the expenditure reported by the certifying entity, rather than a
             payment from the State Medicaid agency, is the activity that generates the federal matching payment.


             2
               The amount reimbursed to counties for county nursing facilities is prov ided in Table 4a of the draft audit. For
             county psych iatric facilities, the amount re imbursed to counties was calculated by subtract ing the total county
             contribution from the tota l expenditures. See draft audit tables Sa and 5b.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa/Medica/Assistance (A -02-1 1-01039)                                                                                                  33
             James P. Edert
             February 21,2014
             Page4

                    B.      Corrections to the OIG Calculations Specific to Particular Provider Types

                            1.      County Nursing Facilities

             As already explained, the State fully complied with the ARRA political subdivisions requirement
             for county nursing facility expenditures because it paid the counties the full amount of the
             Federal share both during the Base and ARRA period. But, even using OIG's methodology, the
             draft audit report significantly overstates the amount to be redistributed to the counties relating
             to county nursing facility expenditures. The draft audit report focuses only on county nursing
             facilities for which OIG determined that the State paid counties a lower percentage of the non­
             Federal share of expenditures in the ARRA Period , as compared to the Base Period, and
             ignores the county nursing facilities for which the State paid political subdivisions a greater
             percentage of the non-Federal share of expenditures. CMS has clarified that presenting data on
             a combined basis for all county nursing homes in a State is the appropriate means of
             demonstrating compliance with the ARRA local jurisdiction requi rement. SMDL #10-010 permits
             the comparison of the percentage of the non-federal share funded by local jurisdictions "for each
             type of expenditure" in the Base and ARRA Periods. See June 21 , 2010 SMDL, at 4. CMS
             used the term "type of expenditure" to refer generally to each category of service, not to
             particular service providers. It is therefore appropriate to take into account the aggregated total
             of State payments to all county nursing facilities . As illustrated in Table 2 below, once all county
             nursing payments are aggregated, the OIG calculation of the amount to be redistributed to the
             counties would be reduced to $20,883,357 .

             Table 2 - Cumulative State Payments to Counties for County Nursing Homes Based on
             OIG Analysis

             A                          8                 c                  D
                                                          Maximum
                                                                             Redistribution
                                        County            Allowable
                                                                             of Increased
                                        Contribution      County
             County                                                          Federal
                                        During ARRA       Contribution
                                                                             Med icaid
                                        Period            During ARRA
                                                                             Assistance
                                                          Period
             Atlantic                   $4,058,003        $3,192, 180        $865,823
             Bergen                     15 ,770,367       24 ,842,316        -9,071 ,949
             Burlington                 3,819,845         5,060,419          -1 240,574
             Camden                     12,237 447        9 279,805          2,957,642
             Cape May                   5,243,207         5,625,054          -381,847
             Cumberland                 2,262 ,841        2,421 ,660         -158,819
             Gloucester                 5,947 ,316        4,310,525          1,636,79 1
             Hudson                     1,540,817         2,565,421          -1 ,024,603
             Mercer                     11,437 ,096       8,756,904          2,680,192
             Middlesex                  16,828,233        15,064,590         1,763,642
             Monmouth                   11 ,999,825       9,591 ,576         2,408,248
             Morris                     14,506,817        12,637 ,460        1,869,357
             Passaic                    42,270 ,092       29,708,123         12,561 ,968
             Salem                      4,236,265         2,869, 181         1,367,084
             Sussex                     2,834,575         1,931 ,524         903,051




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa!Medica!Assistance (A-02-11-01039)                                                                             34
             James P. Edert
             February 21, 20 14
             Page 5

             Union                         24,666 ,265         22 ,210,090         2,456,174
             Warren                        5,334 ,877          4,043,702           1,291 ,176
             Total                         $184,993,887        $164,110,530        $20,883,357

                              2.      Psyc hiatric Fac ilities

             As explained above in section I.A, per CMS guidance, the State fully complied with the local
             jurisdiction requirement for the county psychiatric facilities because both during the Base and
             ARRA Periods it covered at least 85 percent of the total cost of serving uninsured patients at
             those facil ities.3 And it covered the entire cost of serving patients in these facilities that had not
             resided for at least five years in the county. Thus, for county psychiatric facilities the State
             covered far more than the federa l share of Medicaid payments, which even under ARRA
             remained at 50%.

             In addition, the draft audit report, even under the general approach OIG adopted , is flawed by
             not (1) giving effect to State law rega rding the county share of state and county psychiatric
             facilities that was in effect prior to September 30, 2008, or (2) taking into account that the
             State's claimed psychiatric faci lity expenditures we re primarily disproportionate share hospital
             (DSH) claims that substantially exceeded the State's Institutions for Mental Disorders (IMD)
             annual allotment, so that only a portion of the amounts claimed we re actually mat ched by
             federal funds.

                                      a)       Pre-September 30, 2008 Stat e Law

             The New Jersey State Medicaid plan provides for a cost reimbursement methodology based on
             the certification of expenditures by the state and county hospitals. For state hospitals each
             county is billed a portion of the cost of serving patients who have been residents of that county
             for at least five years. For county hospitals, the State reimburses most of the hospitals'
             expenditures fo r otherwise uncompensated care. The percentage of cost borne by the counties
             in either cas e is established in the annual state appropriations laws normally enacted prior to
             the com mencement of the state fisca l year on July 1 of each year. These rates apply to the
             calendar year beginning in the middle of the state fiscal year.

             For the October to December 2008 quarter, the counties were responsible for 10 percent of the
             psychiatric hospital costs applicable to the uninsured patients that were resident in the
             respective counties for at least five years. For calendar year 2009 , the applicable percentage
             was 12.5 percent, but because this rate was established by state law enacted on or about July
             1, 2008, it represents state law in place as of September 30, 2008, the measurement data for
             ARRA compliance. This application of the ARRA local jurisdiction requirement was confirmed by
             the clarification included in section 10201 (c)(6) of ACA, which expressly provided that ARRA
             compliance would be measured against state law (as well as the state plan) as of September
             30, 2008. In State Medicaid Director Letter #1 0-023 (Nov. 9, 2010), CMS stated that it reads the
             ARRA language as meaning that if the State Plan or State law "as of September 30, 2008 ....
             provided for changes in the percentage contributions or dollar amount contributions, those


             3
              In 2009, the reimbursement percentage was 87.5 %. In the October to December 2008 period, the percentage was
             90%.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa/ Medica/ Assistance (A -02-11-01039)                                                                                  35
             James P. Edert
             February 21 , 2014
             Page 6

             changes must be g iven effect as applicable to the current period." !d. at 2. The "State law"
             establishing the 12.5 percent contribution rate was clearly the law on its books as of September
             30, 2008, and must be given effect in applying the local jurisdiction share provision of ARRA.

             The increase in the county percentage from 12.5 to 15 percent that took effect as of January 1,
             2010, standing alone, might arguably be seen as inconsistent with the ARRA requirement.
             However, as explained above, the State was already fully compliant with the political subdi vision
             requirement for all county psychiatric facility payments because the State at all times covered
             far more than the full federal share of the certifying facilities ' costs.

                                         b)       DSH Payments

             All of the state (and county) psychiatric hospitals' expenditures for wh ich the counties had some
             responsibility were DSH payments.' There is a limit in federal law on the amount of a state 's
             annual DSH allotment that can be used for payments to psychiatric facilities (known as the IMD
             limit). In New Jersey, that limit for each of the ARRA years was $178,685 ,231 . The State 's
             expenditures for psychiatric hospital reimbursement, as claimed on its CMS Form 64
             submissions, substantially exceeded the amounts that could be matched , and the State
             received FFP in DSH expenditures for the psychiatric facilities only up to its annual IMD DSH
             limit.

             Furthermore, the counties did not participate in all of the expenditures of the state psychiatric
             hospitals contained in the State's CMS 64-filings. The calculation of the amount billed to the
             counties in excess of the ARRA limit needs to take these two factor s into consideration.
             Appendix A shows the proper calculations for the state psychiatric facilities for ca lendar year
             20 10 . The amount of the excess billing to the counties was S3, 144,979.5

                      C.       School-Based Health Services

             The State does not question the OIG's calcu lation that it would need to redistribute $13,916,801
             to the school districts in order to be in compliance wit h the local jurisdiction share requirement of
             ARRA. See draft audit report, App'x G, Tbl. 6(c) . The State notes that it provides a very
             substantial amount of financia l support to the school d ist ricts outside the Medicaid program,
             which represents only a small fraction of the total State funding fo r the schools.

             II.      Aggregate Method

             The aggregate method of compliance takes into account all annual program service and
             adm inistrative costs under the Medicaid program in effect as of September 30, 2008, and the
             political jurisdictions' share of those costs. See SMDL 10-010. The method then considers


             4
               There was a re latively small amo unt of services provided by the psychiatric hospitals to county residents that
             qua lifie d for regular Medicaid rei mbursement (e.g., patients over age 64). But the State did not require the cou nties
             to pay for any portion of the cost of serv ing th ese patients.

             ' In federal fisca l year 2009 the combi ned DSH claims for psychiatric hospita ls also exceeded by a substantial
             amo unt the !MD DSH limit applicable to that year. It is not necessary to calculate the effect of th is excess claim,
             because, as shown in the text, th e county share of payments in that year did not exceed t he permissible level.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A -02-11-01 039)                                                                                             36
             James P. Edert
             February 21,2014
             Page 7

             comparable costs for the ARRA Period . If the local ju risd iction percentage of the total non­
             federal share of program expenditures is no greater than in the pre-ARRA period, the State is
             deemed to be in compliance with the local jurisdiction requirement.

             OIG concluded that in the aggregate, political subdivisions contributed 4.84 percent of the non­
             Federal share in the Base Period, and 6.35 percent of the same share during the ARRA Period,
             resulting in a difference of approximately $145.2 million.

             The State has identified a methodological error in the OIG's calculation of the percentage of the
             non-Federal share that New Jersey political divisions paid during both the Base and ARRA
             Periods. Once this error is corrected, the State can demonstrate that local jurisdictions
             contributed 7.8 and 8.87 percent during the Base and ARRA Periods, respectively, resulting in a
             discrepancy of just over $100 million. DHS has detailed its reasoning and calculations in
             Appendix B to this letter. However, the State does not rely upon the aggregate methodology
             for measuring its compliance. As shown below, the State would need to distribute no more than
             $17,061 ,780 million to local jurisdictions to be in compliance under the payment-specific
             method.

             III. 	   Conc lusion

             For the reasons explained above , the State need only redistribute $13,916,801 to the school
             districts and $3,144,979 to the counties for excess amounts contributed by them fo r state
             psychiatric hospital expenditures in calendar year 2010 in order to be in full compliance with the
             local jurisdiction share requirement for the period covered by the OIG audit.

             Thank you for providing the State with an opportunity to comment on the draft aud it report.
             Should you have any questions, please contact me or Rich ard Hurd at (609) 588-2550 or by e­
             mail at Richard.H.Hurd@dhs.state.nj.us.


                                                                 Sincerely,




                                                                 Valerie Harr
                                                                 Director


             c: 	     Jennifer Velez
                      Richard Hurd

             Enclosures




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medica/Assistance (A -02-1 1-01039)                                                                       37
             APPENDIX A : Amounts Billed to Counties for State Psychiatric Hospital Services
                          Compared to Permissible Amount in Calendar Year 2010

             Ca lendar year 2010 is the only year covered by the OIG draft audit for which there is a potential
             liability to the counties for excess billing of state psychiatric hospital expenditures. As explained
             above in Section I.B.2.a, the billing rate for ca lendar year 2009 was established in State law
             enacted prior to September 30, 2008, and therefore could be employed without incurri ng any
             ARRA liability.

             The calculation of the ca lendar year 2010 potential excess billing takes into account the
             following : (1) state psychiatric hospital claims were for DSH payments, for which the State is
             subject to the IMD-DSH limitation; (2) IMD-DSH claims in federal fiscal years (FFY) 2010 and
             2011 exceeded the annual state IMD-DSH allotment; (3) counties participated in only a portion
             of all state psychiatric hospital expenditures .

             Table A-1 calculates the percentage of the total state psychiatric hospital expenditures in which
             the counties participate, wh ich was 63.54 percent in calendar year 2010. The data for total
             hospital expenditures (co lumn B) and for the amounts billed to the counties (column C) were
             taken from the State's CMS-64 forms.

             Table A-2 calculates the excess billing to counties during the last three quarters of FFY 2010.
             There was no excess billing in the first quarter (October to December 2009) because the billing
             rate to the counties in that quarter was established in state law prior to September 30, 2008.
             The calculation subtracts the county psychiatric hospital claims and the first quarter state
             psychi atric hospital cla ims from the IMD-DSH limit for the year. The balance is the amount of
             FFP paid with respect to state psychiatric hospital claims in the last three quarters of FFY 2010.
             The percentage of those claims in which the counties participated was derived from Table A-1.
             The counties were billed 15 percent of total expenditures (which is shown by doubling the non­
             Federal Share and multiplying the result by 0.15). The previous billing rate was 12.5 percent, so
             that the excess portion is one-sixth of the amount billed (2 .5/15) .

             Table A-3 provides a similar calculation designed to determine the excess billing amount for the
             October to December 2010 quarter, which was the first quarter of FFY 2011 . The calculation is
             done for three quarters, and the result divided by three to obtain the excess billing amount for
             the October to December quarter.




                                                             A-I




New J ersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa!Medica!A ssistance (A-02-11-01039)                                                                            38
              Table A-1 : County Percenta e Share of State Psychiatric Hos13ital Expend itures6
               A            B             c             D               E
                                                                        County
                                                        Total
                                                                        Participation
                                                        Expenditures
                                                                        as
                            Total         County        in     Which
               Period                                                   Percentage
                            Expenditures Payments       County
                                                                        of       Total
                                                        Participated
                                                                        Expenditures
                                                        (C /15%)
                                                                        (D I B)
               Jan-Mar
                            $114,465, 170 $10,909,310 $72,728,733       63.54%
               2010
               Apr-Jun
                            114,465,170   $10,909,310 72,728,733        63.54%
               2010
               Jui-Sept
                            114,465,170   $10,909,310 72,728,733        63.54%
               2010
               Oct-Dec
               2010
                            114,465,170             I
                                          $1o.9o9,31 o 72,728,733       63. 54%
               Total        $457,860,680 $43,637,240 $290,914,933 63.54%



              Table A-2· Excess Amount Billed to Counties in Last Three Quarters of FFY 20107
               F             G           H             I             J              K                                        L
                                         Federal
                             Federal     Share     of                County
                             Share    of State                       Participation Portion     of
                                                                                                                             Excess
                             County      Psychiatric Remaining Percentage           Total
               Annual State                                                                                                  Amount
                             Psychiatric Hospital      IMD-DSH       of             Expenditures
               IMD     DSH                                                                                                   Billed to
                             Hospital    IMD     DSH Availibility 1 Remaining       Billed     to
               Allotment                                                                                                     Counties
                             IMD    DSH Claims         (F - G- H)    IMD-DSH        Counties
                                                                                                                             (K /6)
                             Claims      Paid      in                Availability   (Jx2x15%)
                             Paid        First                       (Ex I)
                                         Quarter
               $178,685,231 $65,053,020 $42 476,1 08 $70,156, 103 $45,211,074       $13,563,322                              $2,260,554




              6
               The quarterly expenditures in Columns Band C were calculated by taking a quarter of the total annual expenditures
              reported on the State's CMS-64 forms.
              7
                  Columns G and H include all claims applied against the FFY 2010 !MD allotment, including subsequent adjustments.
                                                                      A-2




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal M edical Assistance (A -02-11 -01 039)                                                                                            39
             Table A-3· Excess Amount Billed to Counties in First Quarter of FFY 2011 8
              M             N            0            p               Q               R                                     s
                                                      County
                            Federal
                                                      Participation
                            Share    of                               Portion     of Excess
                                         Remaining Percentage                                                               Excess
              State    IMD County                                    Total            Amount
                                         IMD-DSH      of                                                                    Amount
              DSH           Psychiatric                               Expenditures Billed to
                                         Availibility Remaining                                                             Billed to
              Allotment     Hospital                                  Billed      to Counties
                                         in     First IMD-DSH                                                               Counties
              for     First IMD    DSH                               Counties in in         First
                                         Three        Availability                                                          in First
              Three         Claims                                   First Three Three
                                         Quarters     in       First                                                        Quarter
              Quarters      Paid      in                             Quarters         Quarters
                                         (M -N)       Three                                                                 (R/3)
                            First Three                              (Px2x15%) (Q/6)
                                                      Quarters
                            Quarters
                                                      (EX 0 )
              $134,013,920 $49,131 015 $84,882,905 $53 932 792       $16,179,837      $2,696 640                            $898,880

             Total Excess Amount Billed to Counties in Calendar Year 2010 (L + S):                                 $3,1 44,979




             8
                 Col umns Nand 0 include all claims applied against the FFY 20 11 IMD allotment, including subsequent adjustments.

                                                                     A-3




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa!Medica!Assistance (A -02-11-01 039)                                                                                              40
             APPENDIX 8: Aggregate Approach

             In calculating its compliance with the ARRA requ irements for enhanced temporary FMAP during
             the ARRA Period , the State assumes arguendo that the underlying data OIG used to perform its
             calculations, as detailed in Appendix F of the draft aud it report , are correct. Nonetheless, the
             State has determined that OIG's calculation of New Jersey politica l subdivisions' percentage
             co ntribution of the non-Federal share using the aggregate method contains a methodological
             error: OIG did not accou nt for the fact that co unty nu rsing facilities and county-operated
             psych iatric facilities are paid on a CPE basis.

             In its ARRA Frequently Asked Questions guidance document, CMS clarified that "[u]nder a CPE
             financing mechanism[,] the applicable (county] percentage of the non-Federal share for [ARRA
             Federal] claiming purposes is no less th an 100 percent (but could be more if the State does not
             share with the subdivision the Federal payment)." CMS ARRA FAQs, at 14 (emphasis added).
             Under CMS 's interpretation, when services are paid by CPEs, the county percentage does not
             decrease below 100 percent even if the State uses state funds to reim burse a portion of the
             expenditures. This follows from the fact that the CPE , rather than a paym ent from the State
             Medicaid agency, is the event that triggers the federal matching payment.

             In New Jersey, county nursing facilities and psychiatric facilities operated by counties are paid
             on a CPE basis . Yet , Appendix F of the Draft Report calculates the political subdivisions'
             contribution to the non-Federal share during both the Base and ARRA Periods to be
             considerably less than the non-Federal share, in ot her words, well short of 100 percent.
             App lying CMS 's guidance on the CPE method , the State has adjusted the aggregate method
             calculation to make the county percentage of the non-Federal share for ARRA Federal claiming
             purposes 100 percent in both the Base and ARRA Periods.

             The chart below corrects the error and demonstrates that the amount to be redistributed to
             political subdivi sion s under the aggregate method wo uld be only $102.3 million , not the $145.2
             million calculated by OIG.




                                                           B-1




New J ersey Did Not Comply With R ecovery Act Requirements f or Receiving Increased
Federa!Medica!A ssistance (A -02-11-01039)                                                                        41
           Table B-1: State Compliance with Political Subdivision Requirement Under Aggregate Approach

          A                              B                   c                     D                E              F              G              H
                                                                                                                                  Subdivision    Subdil
                                                                                                                                  Contribution   Contri
                                                                                                    Subdivision
                                                                                                                   Subdivision    Perce ntage    Percer
                                         Total                                     Non-Federal      Contribution
          Type of Service                                    Federal Share                                         Contribution   to      Non-   to
                                         Expenditures                              Share            (OIG
                                                                                                                   (Modified)     Federal        Feder<
                                                                                                    Calculation)
                                                                                                                                  Share (OIG     Share
                                                                                                                                  Calculation)   (Modif
          Base Period (10/1/2007-9/30/2008)
          County Nursing Facilities       $358,180,482       $179,090,241          $179,090,241     $94,787,436    $179,090,241   52.93%         100.00
          State        Agency-Operated
                                          458,827,002        229,41 3,501          229,413,501      15,011,946     15,011,946     6.54%          6.54%
          Psychiatric Facilities
          County-Operated Psychiatric
                                          138,350,614        69,175,307            69, 175,307      5,787,342      69, 175,307    8.37%          100.00
          Facilities
          School Based Health Services
                                          89,656,852         44,828,426            44,828,426       73,966,903     73,966,903     165.00%        165.00
          Costs
          Administrative Costs            163,157,686        84,835,066            78,322,620       51,723,908     51 ,723,908    66.04%         66.04°/
          Subtotal                        1,208, 172,636     607 ,342,541          600,830,095      241 ,277,535   603 369,860    40.16%         64.74°/
          Subtotal          -       Other
                                          8 ,851 ,064,050    4,466, 748,508        4 ,384,315,542   0              0
          Expenditures
          Aggregate Total for Base
          Period    -­   All     Medicaid $ 10,059,236,686   $5,074,091,049        $4,985,145,637   $241 ,277,535 $603,369,860    4.84%          7.80%
          Services



          ARRA Period (1 0/1/2008-12/31/201 0)
          County Nursing Facilities      $795,761 095        $485,076 117     J    $310,684,978     $184 993,887 $310,684,978     59.54%         100.00
          State-Agency-Operated
                                         720,608,743         360,304,372          1360,304,371      30,872,559     30,872,559     8.57%          8.57%
          Psychiatric Facilities
          County-Operated Psychiatric
                                         260,688,980         130,344,490           130,344,490      13,693,054     130,344,490    10.51%         100.00
          Facilities
          School Based Health Services
                                         351 ,937,576        215,731,078           136,206,498      290,348,500    290,348,500    213.17%        213.17
          Costs
          Administrative Costs            329,840,281        172,885,475           156,954,806      91 ,267,502    91,267,502     58. 15%        58 . 15~

                                                                          B-2 





New Jersey Did Not Comply With R ecovery Act Requirements for R eceiving Increased
Federal MedicalAssistance (A -02-11-01039)                                                                                                                  42
          Subtotal                       2,458,836 675      1,364,341 ,532    1,094,495,144    611 '175,502    1,182,949,842     55.84%   108.08
          Subtotal-Other Expenditures    21,212,255,918     12,679,394,110    8,532,861 ,807   0               0
          Aggregate Total for Base
                                         $23,671 ,092,593   $14,043,735,642   $9,627,356,951   $611 ,175,502   $1 '182,939,842   6.35%    8.87%
          Period-All Medicaid Services




                                                                      B-3




New Jersey Did Not Comply With R ecovery Act Requirements for Receiving Increased
FederalMedicalAssistance (A -02-11-01039)                                                                                                          43
          APPENDIX 1: STATE AGENCY COMMENTS DATED MARCH 31, 2014 





                                                    ~brle of ~efu            W.eney
     CHRIS CHRISTIE                               DEPARTMENT OF HUMAN SERVICES
        Governor                     DIVISION OF MEDICAL ASSISTANCE AND HEALTH SERVICES

     KIM GUADAGNO                                            PO Box 712
                                                                                                                        J ENNIFER VELEZ
       Lt. Governor                                     TRENTON, NJ 08625-0712
                                                                                                                         Commissioner
                                                           March 31 , 2014                                              VALERIE HARR
                                                                                                                           Director


              James P. Edert
              Regional Inspector General for Audit Services
              Department of Health and Human Services
              Office of Inspector General
              Office of Audit Services, Region II
              Jacob K. Javits Federal Building
              26 Federal Plaza, Room 3900
              New York, NY 10278

              Re: 	 Supplement to New Jersey Response-Draft Audit Report on Political
                    Subdivision Requirement Under the Recovery Act, A-02-11-01 039

              Dear Mr. Edert:

              I am writing to supplement the above-captioned response to your Draft Audit Report A-02-11­
              01 039, entitled New Jersey Did Not Comply with Recovery Act Requirements for Receiving
              Increased Federal Medical Assistance, which was sent to us under cover of your letter dated
              December 17, 2013.

             The Draft Report included recommendations that the State, in order to be in compliance with the
             Recovery Act, redistribute $32,761 ,148 to county nursing homes and $2,895,831 to county
             psychiatric facilities. The State's response disputed these recommendations. Based on its
             understanding of the Centers for Medicare and Medicaid Services's (CMS) policies concerning
             compliance in the Certified Public Expenditure (CPE) context, the State believes that it was in
             full compliance with respect to both county nursing homes and county psychiatric facilities . See
             Response of Feb. 21 , 2014, at 2-3.

             We have now received confirmation from CMS that our understanding is correct. I am enclosing
             a letter from Kristin Fan, Deputy Director of the Financial Management Group within the Center
             for Medicaid and CHIP Services, dated March 20, 2014. Ms. Fan's letter was in response to my
             letter to her dated March 10, 2014, seeking confirmation of our understanding of the CMS
             policies in the CPE context. Ms. Fan reviewed the CPE information relating to county nursing
             facilities and county psychiatric facilities, and agreed with our conclusion that "New Jersey was
             in compliance with the political subdivision requ irements as established under section
             5001 (g)(2) of ARRA. "

             I am enclosing copies of my March 10, 2014 letter to Ms. Fan and her March 20, 2014 letter to
             me. Based on this correspondence, which confirms the position set forth in our response of
             February 21 , 2014, I request that your office withdraw its recommendation that the State
             redistribute funds to county nursing homes and county psychiatric facilities.




                         New J,.rsey Is An Equal Opportunity Employer •   Printed 0 11 R16cycled Paper alld Recyc/ohk




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa!Medica! Assistance (A-02-11 -01039)                                                                                                44
             James P. Edert
            March 31, 2014
            Page 2


             Should you have any questions, please contact me or Richard Hurd at 609-588-2550 or by e­
             mail at Richard.H.H urd@dhs.state.nj.us.

                                                      Sincerely,


                                                      v~~
                                                      Va lerie Harr
                                                      Director

             VH:H
             Enclosures
             c. C. Bailey
                R. Hurd




New Jersey Did Not Comply With Recovery Act Requirementsfor Receiving Increased
Federal Medical Assistance (A -02-11-01 039)                                                             45
                                                    State of New Jersey
                                                     DEPARTMENT OF H UMAN SJJ RVICIJS
                                          D IVISION OF MEDICAl, A SSII.'TANCIJ AND H UALTH S ERVICl!S
         CHRIS CHRI~'TIE                                           1'.0. Box 712                               JBNNIFER V BLIJZ
            Governor                                         Trento n, NJ 0862~ -07 12                          Commissioner

         K IM G UADAGNO                                                                                         VAt..nRII! HARR
           Lt. Governor                                                                                            Director


                                                                   March 10, 2014



                 Ms. Kristin Fan
                 Deputy Director, Financial Management Group
                 Center for Medicaid and CHIP Services
                 Centers for Medicare & Medicaid Services
                 7500 Security Boulevard
                 Baltimore, Maryland 21244-1850

                 Dear Ms. Fan:

                 This is to request confirmation from the Centers for Medicare and Medicaid Services (CMS) of
                 the Interpretation of the State of New Jersey of the local jurisdiction share requirement of the
                 American Recovery and Reinvestment Act (ARRA) in the circumstances described below. The
                 Issue arises in connecti on with an audit by the Office of Inspector General (OIG) of the Stale's
                 compliance with the ARRA requirement during the period October 2008 through December
                 2010.
                                                                                               I
                 New Jersey's Medicaid program covers services in county-owned nursing homes and county
                psychiatric facilities. As public entities , these facilities certify their costs to the Department of
                Human Services, Division of Medical Assistance and Health Services, and the cert ified
                expend iture s are the basis for the claims for federal reimbursement for these services . Prior to
                ARRA the matching rate fo r the services was 50 percent. During the ARRA period the matching
                for the nursing facilit ies rose as high as 61 .59 percent. The certified expenditures for the
                psychiatric facil ities were cla imed as DSH payments, for which the FMAP rate was 50 percent
                throug hout the ARRA period.

                The long standing practice in New Jersey has been for the State to reimburse most of the
                counties' costs of operating their nursing homes and psychiatric facilities. In the case of the
                nursing homes the reimbursement is pursuant to a statutory form ula under which the
                percentag.e of costs reimbursed varies by county but in tota l is substantially greater than the
                federa l share of the costs. In the case of the psychiatric facilities, t he state reimburses the
                counties a set percentage of costs fo r those patients (other t han Medicaid eligibles) who have
                been residents of the county for at· least five years, and 100 percent for all other patients
                (including Medicaid eligible patients). In calendar year 2008 the reimbursement percentage,
                established in the state's app ropriation law, was 90 percent. In ca lendar year 2009 (established
                in an appropriation law enacted well before the beginning of federal fiscal year 2009) the rate
                was 87.5 percent. In calendar year 2010 the rate was 85 percent.




                                                   New Jcruy Is An Equal Opporhmlty Employer




New Jersey Did Not Comply With Recovery A ct R equirements f or Receiving Increased
F edera!Medica! Assistance (A -02-1 1-01039)                                                                                      46
                   The following charts show (in the aggregate), for the ARRA base period and for the ARRA
                   period October 2008 through December 2010, the total amounts certified, the federa l and non­
                   federal shares, the amounts reimbursed to the counties, the federal share percentage of the
                   certified costs and the percentage of certified costs reimbursed to the counties by the State.

                                                      County Nursing Facilities

                                 Total          Federal     Non-Federal      Amount                  Percent
                                 Certified      Share       Share           Reimbursed               ReimQursed
                                 Expenses                                   to Counties              to Counties

                   Base Period $358,180,482 $179,090,241 $179,090,241 $263,393,046 50.00%                 73.53%
                   10/07-9/08

                   ARRA Period $795,761,095 $485,076,117 $310,684,978 $610,767,207 up to 61.59% 76.75%
                   10/08-12/1 0

                                                    County Psychiatric Facilities

                                 Total         Federal      Non-Federal      Amount                  Percent
                                 Certified     Share        Share           Reimbursed               Reimbursed
                                 Expenses                                   to Counties              to Counties

                Base Period $138,350,614 $69,175,307 $69,175,307 $132,563,272 50.00%                  95.81%
                10/07-9/08

               ARRA Period $260,688,980 $130,344,490 $130,344,490$246,995,926 50.00%                   94.74%
               10/08-12/10

               As can be seen, throughout the ARRA period the counties were reimbursed for far more than
               the federal share of their certified expenditures for both the county nursing facilities and the
               county psychiatric facilities.1

                On July 7 , 2009, Cindy Mann, Director, Center for Medicaid and State Operations, issued a
                letter to State Health Officials attaching answers to Frequently Asked Questions that were
                intended as guidance in the implementation of ARRA. The answer to question 34a (page 14,
                attached) addressed the treatment of Certified Public Expenditure (CPE) financing mechanisms,
                and explained that the applicable percentage of the non-federal share for claiming purposes is
                no less than 100 percent (but could be more if the State does not share the federal payment
               with the local jurisdiction). To be compliant with the local jurisdiction share of ARRA, the
               guidance stated that, even if a state were to switch to an Intergovernmental Transfer method, it
               could not ask a local jurisdiction to contribute more of the· non-federal share t han it would have
               through a CPE methodology. Since the local jurisdiction share in a ·CPE system is never less
               than 100 percent, the state would be in compliance so long as it did not require the local
               jurisdiction to bear more than 100 percent of the non -federal share during the ARRA period.

               In New Jersey during the ARRA period, the counties did not bear more than 100 percent of the
               non-federal share of the amounts certified. To the contrary, as the tables show, the counties

               1
                  During the ARRA. period the State's reimbursement of county nursing homes exceeded the
               federal share in the aggregate by over $125 million . Its reimbursement of county psychiatric
               facilities exceeded the federal share in the aggregate by over $116 million .




New Jersey Did Not Comply With R ecovery Act R equirements for Receiving Increased
FederalMedicalAssistance (A-02-11-01039)
                                                                                                                     47
               actually bore substantially less than the non-federal share. This means that the State passed
               through in full (and more) the enhanced FMAP (in the case of nursing facilities), and much more
               than the federal share in the case of psychiatric facilities.

               We request that CMS confirm our understanding that a state that passes through to a local
               jurisdiction at least the full amount of the federal share of certified expenditures during the
               ARRA period is compliant with the local jurisdiction share requirement of ARRA. It is our
               intention to provide the CMS confirmation to the OIG, in order to resolve the portion of its
               current audit that relates to certified expenditures of county nursing homes and psychiatric
               facilities in New Jersey.

               Thank you very much for your consideration of this req uest.

                                                           Sincerely,



                                                           Valerie Harr
                                                           Director


               Enclosure
               c: 	 Christopher Bailey
                    Richa rd Hurd




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federal Medical Assistance (A -02-I 1-01 039)                                                                    48
                   DEPARTMENT OF HEALTH ,<,z HUMAN SERVICES
                  Centers foJ' Medicare & Medicaid Services
                  7500 Security Boulevard, Mail Stop S2-26-12
                  Baltimo re, Marylond 21211-1850                              CLNTF/11 for M/!0/CAIIEII M£0/CA/DSfRVICFS


                  Center for Medicaid and Sl:ctte Operations



                           American Recovery and Reinvestment Act of 2009 

                              Ft·equently Asked Questions from States 

                                            July 7, 2009 

                               Division D, TiUe I, Section 1001 - Maldng Work Jlay Credit

                  Question 1: Unlike last year's stimulus payment and regular tax refunds, the Making Work Pay
                  credit is not being sent as a separate check, or just included in a tax refund. Peo ple who are
                  working w ill start getting it in their paychecks as early as April. The tax withhe ld from the ir
                  gross pay will go down, resulting in them receiving more Lake home pay. However, Lhe ARRA
                  says that this amount of credit is not counted as income for determ ining eligibility for federally
                  funded programs. We are not sure what we arc suppust:d to do. Are we supposed to reduce the
                  amount of the person's gross earned income by the amount of this cred it that they will be
                  receiving in each check? Or do we continue to count the person's gross income? Has CMS
                  d iscussed any method of identifying what the amount would be that we wou ld not count or how
                  we would figure that o ut?

                  Ans we r: Section I 00 I of the Recovery Act adds a new section to the Internal Revenue Code.
                  Under this new section, a credit against taxes paid is provided to indiv iduals who meet that
                  section's requirements. According to the Internal Revenue Service's Web site
                  (http://www. i u~. gov/newsroom/artic l e/O ..id=-<204447,00.html) for people who receive a paycheck
                  and are subject to withholding, the credit wi ll be handled by their employers through automated
                  withholding changes in early spring.

                 The change in w ithho lding is likely to produce inore take home pay for those receiving credit
                 through their paychecks. For others , the credit can be claimed on their 2009 and 2010 tax
                 returns. The credit is the lower of6.2 percent of the person's earned income, or $400 ($800 fora
                 joint return).

                 T o determine the dollar amount of the credit, multiply the individual's earned income (as defined
                 for tax purposes) by 6.2 percent. T he result is the dollar amount that should be d isregarded. No
                 more than $400 for an individ ual, or $800 for a couple filing a joint return, should be disregarded
                 in any one year.




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
FederalMedicalAssistance (A-02-11-01039)
                                                                                                                            49
                   Page l 3 - F rcquenfly Asked Questions, 717/09


                  such as education, or to maintain aspects of their Medicaid program that may have been
                  previously cut due to budgetary constraints. The important factor is that the Slates spend the
                  entirety of their increased FMAP funds and report on specitic uses of these funds to CMS on an
                  ongoing basis. Instruct ions for reporting on the use of these fu nds will be issued to Slates
                  shortly.


                  Local G overnment Share in the State's M e dica id M atch


                  Quest ion 32: ARRA makes States ineligible for increased FMAP if they increase the local
                  government's share of the State Med icaid match to a percentage greater than was in place under
                  the State plan on September 30, 2008. Our State policy makers have posed the fo llowing
                  scenario (the numbers in the example are made up for simpl icity) and asked if it would constitute
                  a violation of the proposed restriction language:

                          Under current law, a fo rmula is used to calc ulate the amount of funding counties are
                          required to pay fo r a certain program with the State's generally paying about 50% of the
                          growth and the counties paying about 50% of the growth. If that formu la is changed,
                          requiring the counties to pay I 00% of the growth in FY 2010, however, the overall
                          county percentage is still below what they contributed in FY 2008 (due to higher growth
                          in the overall State match), would that make the State ineligible for the increased FMAP?


                  Wil l CMS score this restriction based entirely on the percentages paid at the end of the recession
                  period, or will a change to the methodology used to calcu late county contribution (resu lting in a
                  greater contribution) be considered a violation?

                 Answe r : Under section 5001(g)(2), during the recession adjustment period (October 1, 2008 ­
                 December 31, 20 10), States may not require the percentage of a State's non-Federal share of
                 expenditures contributed by political subdivisions w ithin a State to be greater than the percentage
                 required under the State's p lan on September 30, 2008. This test is app lied on a percentage basis
                 and not on a do llar basis. For exam ple, if on Septe mber 30, 2008, a State req uired its political
                 subd ivision to contribute 10 percent of the non-Federal share of its Medicaid expenditures, then,
                 during the recession adjustment period, the political subdivisions must cont inu e to contribute no
                 more than 10 percent of the non-Federal share in order for the State to continue to be in
                 compliance with the ARRA requirements.


                 Question 33: Our State's legislature has cut fund ing fo r Graduate Med ical Education and other
                 Medicaid programs. T he counties have ap proached the State with the possibility of vo luntarily
                 providing the non-Federal share for some of these expenditures that have been cut by the State
                 legislature. Section 500 I(g)(2) of ARRA prohibits States from requiring political subdivisions
                 to contri bute a greater percentage toward the non-Federal share of expenditures than otherwise
                 would have been required on September 30, 2008. If this is done on a voluntary basis and at the
                 request of the State's political subdivisions, would that violate provisio ns on main tain ing the
                 ratio of local s hare?




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
FederalMedicalAssistance (A -02-11-01039)
                                                                                                                        50
                   Page 14- Frequently Asked Questions, 7/7/09


                   A nswer: As noted above, if the percentage of the political s ubdivisions' non-Federal share
                   increases during the recession period, even on a "voluntary" basis, the State would be in
                   violation of the ARRA requ irement.


                   Question 34a : There are some facilities that have been and currently are using Certified Publ ic
                   Expenditures (CPEs) as the funding mechanism. These facilities include a local public hospital
                   and th e State's university hospital. Another group includes the State-owned Institutes for Mental
                   Disease (JMD). The State has been exploring the possibility of converting to the usc of
                   Intergovernmental Transfers (JOTs) as the funding mechanism instead of CPEs. The question is,
                   would converting from CPE to IOT be considered a violation of attestation #3, in which tho State
                   attests that they do not require polit ical subdivisions to contribute a greater percentage of the
                   non-Pederal share of expenditures beginn ing October I, 2008?

                   Answer: Not necessarily. Under a CPE financing mechanism the appli cable percentage of the
                   non-Federal share for claiming purposes is no less than 100 percent (but could be more if the
                  State does not share with the subdivision the Federal payment). Dy moving to an IOT financing
                  mechan ism, the non-Federal share contribution could not be any more than 100 percent of th e
                  non-Federal share, or such higher level as is represented by the CPEs. That is, under a CPE
                  funding mechanism, the political subdivision is contributing at least 100 percent of the non­
                  Federal s hare of its expenditures. Therefore, if a State moved to an JOT funding mechanism
                  during the recession adj ustment period the pol itical subdivision making the lOT could not
                  contribute more than the percentage of the non-Federal sh 1:1n~ that it would have th rough CPEs.
                  Jn doing so, the State must credit the political sulxlivision with the reduction in the non-Federal
                  share resulting from the increased FMAP under ARRA.


                  Q uestion 34b: How are transfers from departments within a State treated for purposes of this
                  provision? If the State's Department of Mental Health normally transfers funds it was
                  a ppropriated from the State to the Medicaid Department for Medicaid payments, do these
                  transfers have to be in the same percentage o r can they remain at the same dollar amount?

                  Answct·: These are considered transfers between Departments within the State itself and no t
                  contri butions o r transfers from political subdivisions. Therefore, such transfers between
                  Departments within the State government are not bound hy the requirements at section
                  500l(g)(2) of ARRA.


                  Question 34c: Is section 500l (g)(2) applicable to the following: lOTs, CPEs, and health care
                  related taxes?

                  Answer: I.GTs from a political subdivision to the State would have to comply with this
                  provision. T herefore, the amount of the IGTs from a political subdivision may not increase on a
                  percentage basis from what was transferred as ofSeptember 30, 2008. States should carefully
                  review requirements with their political subdivisions to ensure that any agreements where
                  specific do llar amounts are transferred are adjusted so that the overall percentage of the non­
                  Federal share contribution is not increased due to the increase in the FMAP rate and the
                  reduction in the non-Federal share.




New Jersey Did Not Comply With R ecovery Act R equirements for Receiving Increased
FederalMedicalAssistance (A-02-11-01039)
                                                                                                                        51
                   Page 15 - f7requently Asked Questions, 717/09


                   Under a CPE financing mechanism the applicable percemnge of the non-Federal share for
                   claiming purposes is no less than I 00 percent (but couldbe more ifthe State does not share with
                   the subdivision the Federal payment). The State should ensure thut, liS the Federal share
                   increases, the reduction in the non-Federal share is credited proportionately 1.o the contributing
                   public agency certifying public expenditures.

                   We do not believe that health care-related taxe s are impacted by this provision. Health care­
                   re lated taxes are not requirements imposed upon pol itical subdivisions fo r purposes of fin ancing
                   the non-Federa l share of Medicaid payments. The health care-related tax is assessed against
                   health care providers fo r the provisio n of certaiu health care items or services. In order to be
                   considered a permissi ble sot.n·cc of non-Federal share financing, a hcalthcare-related tax must
                   meet other statutory requirements at section 1903(w) of the Act.


                   Question 34d: What is the definition of a "political subdivision" and what relationship does this
                   have to any of the regulations CMS published regarding the definition of a unit of government?

                  Answer: States have considerable discretion to create and define "political subd ivisions" but
                  must apply the same definitions under Medicaid as they do for other purposes under State law.
                  There are no CMS regulations in effect at this t ime that would establish another definition of
                  politica l subdivis ion so we would accept the State' s designation of its political subdivisions.


                   Question 34c: What if a State has a program established where local governments pay a
                   fi xed percentage of a total allotted amount (e.g., the State's DSH allotment or available
                  room under their UPL)? Is it CMS' interpretation of this section that the State cannot requi re
                  the political subdi visio n of the State, to co ntinue to pay a fix ed percentage of the total amount for
                  the State to be el igible for increased FMA P funds under ARRA? To be eligible for increased
                  FMAP funds is the State required to revise this agreement to provide that during the recession
                  adjustment period the political subdivision must pay the regular State Medical Assistance
                  Percentage (S-MAP)? To be eligible for increased FMAP funds, is the State requ ired to revise
                  this agreement to provide that, during the recession adjustment period, the political subdivision
                  must pay some other percentage of the total amount? If so, what percentage must it pay?

                  A nswer: The State must evaluate the percentage of the non-Federal share the political
                  subdivision was previously providi ng (as ofSeptember 30, 2008). The State must then
                  determine if th is percentage hus effecti vely increased w ith any ofthc changes authorized under
                  ARRA. The State must ens ure that the percentage of.the non-Federal share co ntri bution from the
                  po litical subd ivision is no more than what it was required to contribute as of September 30,2008.
                  If, as a result of the ARRA changes, the political subdivision's percentage contribution ofthe
                  non-Federal share has inc reased then the State wou ld be in violation of AR.RA.


                 Drawing Down Funds and Reporting


                 Question 35: When CMS says "able to access" does that mean States are being sent money for
                 two quarters based o n estimated need and then a reconciliation w ill occur, or are the funds goi ng




New Jersey Did Not Comply With R ecovery A ct Requirements for R eceiving Increased
Federa!Medica!Assistance (A -02-1 1-01039)                                                                                    52
              DEPARTMENT O F HEALTH & HUMAN SERVICF5
              Centers for Medicare & Medicaid Services
              7500 Security Boulevard , Mail Stop 52-26-12
              Baltimore, Maryland 21244-1 850




              Valerie Harr
              Director
              Division ofMedical Assistance and Health Services
              Department ofHuman Services
              P.O. Box 712
              Trenton, New Jersey 08625-0712

              Dear Ms. Harr:

              Thank you for your letter regarding New Jersey's use of certified public expenditures (CPEs)
              within its Medicaid program and their interaction with the local jurisdiction share requirement of
              the American Recove ry and Reinvestment Act (ARRA).

              As you mentioned, section 5001(g)(2) ofARRA stipulated that states may not, during the
              recovery period (October I, 2008-December 31, 201 0), require the percentage of a state's non­
              federal share of Medicaid expenditures contributed by political subdivisions within a state to be
              greater than th e percentage required under the state's plan on September 30, 2008. In addition to
              a letter to all states on how to implement this provision, the Centers for Medicare & Medicaid
              Services (CMS) also issued additional guidance on July 7, 2009 in the form ofa question and
              answer document. In that document, CMS reiterated that compliance with thi s requirement was
              to be applied on a percentage basis.               ·

              CMS also clarified that fo r purposes of a CPE, the applicable percentage of the non-federal share
              for claiming purposes is never less than 100 percent of the non-federal share. In your letter, you
              provided information regarding application of CPEs with yo ur county nursing fac ilities as well
              as your county psychiatric facilities. ln both of these instances, New Jersey has documented that
              the counties were not required to contribute more than 100 percent ofthe non-federal share ofth e
              total payments.

              Therefore, CMS would agree tha t New Jersey was in compliance with the political subdivision
              requirements as established under section 5001(g)(2) ofARRA. I hope this information is
              helpful and let me know if you have any additional questions.

                                                             Sincerely,

                                                         ~~~
                                                             Kristin Fan
                                                             Deputy Director




New Jersey Did Not Comply With Recovery Act Requirements for Receiving Increased
Federa/Medica/Assistance (A -02-1 1-01039)                                                                         53
